  Report No. DODIG-2013-136      September 18, 2013




            Special Plans and Operations



Assessment of the Office of Security Cooperation-Iraq
                Mission Capabilities
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
                                                                                                                       hot line                              make a difference
                                                                                                                                                                 800.424.9098
                                                                                                                                                                                 Report                        www.dodig.mil/hotline
                                                                                                                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
                                                                                                                       Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
This Page Intentionally Left Blank
Report No. DODIG-2013-136                                                       September 18, 2013


               Results in Brief: Assessment of the
               Office of Security Cooperation–Iraq
               Mission Capabilities

What We Did                                               •   the OSC-I did not have sufficiently
                                                              trained personnel, nor the required
This report addresses the adequacy of                         capability to transition sites back to the
Department of Defense support for                             government of Iraq; and
executing security cooperation programs in                •   joint doctrine insufficiently supported
Iraq and whether the Office of Security                       the post-contingency inter-departmental
Cooperation–Iraq (OSC-I) is organized,                        transition of responsibilities that was
equipped, and prepared to successfully                        occurring in Iraq.
accomplish its mission. We:
   •   determined whether Department of                What We Recommend
       Defense goals, objectives, plans, and
                                                       Among other things, we recommend that the
       guidance for executing security
       cooperation programs in Iraq through
                                                       Under Secretary of Defense for Policy
       the OSC-I performing under U.S.                 designate a Senior Defense Official in Iraq;
       Department of State/Chief of Mission            the Chief, Office of Security Cooperation–
       authority are issued and sufficiently           Iraq issue standard operating procedures to
       operative;                                      facilitate working within the U.S. Mission;
   •   determined whether the OSC-I is                 and Commander, U.S. Central Command:
       adequately structured and resourced to             •   issue an updated Iraq Country Plan;
       accomplish its security assistance/                •   accelerate integrating the OSC-I within
       security cooperation mission;                          the U.S. Mission Iraq; and
   •   identified impediments to OSC-I                    •   communicate sufficient details about
       mission accomplishment and provided                    OSC-I capabilities, activities, and
       suggested recommendations; and                         objectives to the U.S. Country Team to
   •   assisted the Department of State Office                enable their support, guidance, and
       of the Inspector General in assessing the              oversight.
       process used to determine short- and
       long-term OSC-I staffing requirements.          Management Comments
What We Found                                          and Our Response
                                                       Management concurred with all
Over a year after the OSC-I was established,
                                                       recommendations and, in response to their
we identified areas requiring management
                                                       inputs, we added a new recommendation at
attention. Specifically, we determined that:
                                                       Observation 3. See the table on the
   •   the Departments of State and Defense
       disagreed on the OSC-I mission;                 following page for a list of additionally
   •   the process used to direct OSC-I                required comments to the final report that
       personnel reductions did not fully              are due by October 16, 2013.
       consider its mission priorities;
   •   the OSC-I was not fully integrated into
       the U.S. Mission, to include insufficient
       standard operating procedures;



                                                   i
Recommendations Table

Client                              Recommendations             No Additional Comments
                                    Requiring Comment           Required

Under Secretary of Defense for      1.a.(1), 1.a.(2), 1.a.(3)   4.b.
Policy

Commander, U.S. Central             1.b., 2.a., 2.b., 2.c.,    3.a.(1), 4.a.
Command                             3.a.(2), 3.a.(3), 5.a.(1),
                                    5.a.(2), 5.a.(3)

Chief, Security Cooperation         3.b.
Office–Iraq
Director, Joint Force               5.b.
Development, Joint Staff J7
Director, Office of the Secretary   3.c.
of Defense, Cost Assessment and
Program Evaluation

Total Recommendations in this Report: 18.

Please provide comments by October 16, 2013.




                                             ii
Table of Contents
RESULTS IN BRIEF......................................................................................................... i
   What We Did ................................................................................................................... i
   What We Found ............................................................................................................... i
   What We Recommend ..................................................................................................... i
   Management Comments and Our Response .................................................................... i
   Recommendations Table ................................................................................................. ii
INTRODUCTION............................................................................................................. 1
OBSERVATION 1. SCOPE OF THE OFFICE OF SECURITY
  COOPERATION–IRAQ MISSION........................................................................ 13
OBSERVATION 2. SIZING THE OFFICE OF SECURITY
  COOPERATION–IRAQ .......................................................................................... 21
OBSERVATION 3. OFFICE OF SECURITY COOPERATION–IRAQ
  INTEGRATION........................................................................................................ 31
OBSERVATION 4. DEPARTMENT OF DEFENSE TRANSITION
  OF SITES IN IRAQ .................................................................................................. 45
OBSERVATION 5. SUFFICIENCY OF JOINT DOCTRINE ................................. 51
APPENDIX A. SCOPE, METHODOLOGY, AND ACRONYMS ........................... 61
APPENDIX B. SUMMARY OF PRIOR COVERAGE ............................................. 65
APPENDIX C. GLOSSARY ......................................................................................... 67
APPENDIX D. OFFICE OF SECURITY COOPERATION–IRAQ
  SECURITY ASSISTANCE AND SECURITY COOPERATION
  FUNCTIONS ............................................................................................................. 71
APPENDIX E. ORGANIZATIONS CONTACTED AND VISITED ....................... 89
APPENDIX F. MANAGEMENT COMMENTS ........................................................ 93
APPENDIX G. REPORT DISTRIBUTION.............................................................. 105
This Page Intentionally Left Blank
Introduction
Background
This is the third in a series of Department of Defense Office of Inspector General (DoD
OIG), Special Plans and Operations reports regarding establishment of an Office of
Security Cooperation–Iraq (OSC-I). The first two assessments reported on planning and
establishing the OSC-I, respectively, which occurred prior to the end of contingency
operations and DoD transitioning the responsibility to train and equip the Iraq Security
Forces (ISF) to Department of State (DOS). This third report deals with OSC-I mission
capabilities and its post-contingency operating procedures including conducting security
cooperation programs under the U.S. Mission in Iraq authority. This third assessment
was conducted in coordination with DOS Office of Inspector General (DOS OIG), Office
of Audits.

On August 25, 2011, the DoD IG issued Report No. SPO-2011-008, “Assessment of
Planning for Transitioning the Security Assistance Mission in Iraq from Department of
Defense to Department of State Authority.” The report determined that, despite some
shortcomings, detailed planning to accomplish the transition of the security assistance
function to U.S. Mission authority was sufficiently developed and operative.

On March 16, 2012, the DoD Inspector General issued Report No. DODIG-2012-063,
“Assessment of the DoD Establishment of the Office of Security Cooperation–Iraq.” The
report determined that, although the establishment of the OSC-I was on track to meet its
full operating capability target date and to operate independently as an element of the
U.S. Mission to Iraq by January, 2012, key areas required management attention.

DoD OIG and DOS OIG collaborated on a joint project to facilitate portions of this third
DoD IG OSC-I report and to assist DOS OIG with its more comprehensive audit of the
realignment of the U.S. diplomatic presence in Iraq. Two DOS OIG members
accompanied the DoD OIG assessment team that visited Iraq in late 2012.

The objective of the joint DoD and DOS OIG project was to assess the process used to
establish the short- and long-term staffing requirements for DoD elements assigned to the
U.S. Mission in Iraq. It was conducted at U.S. Embassy–Baghdad, selected field
locations in Iraq, and in Washington, D.C. The joint assessment included interviews in
Washington, D.C., with DoD and DOS officials in bureaus and offices involved with
staffing in Iraq, and interviews in Iraq with DoD and U.S. Mission program and
management officials. DoD OIG and DOS OIG included relevant joint assessment
aspects in their respective reports. There is no separate joint report.

Objectives
On August 16, 2012, DoD IG announced the “DoD IG Assessment of the Office of
Security Cooperation–Iraq Mission Capability.”



                                            1
Specific objectives for this assessment were to:

      •    determine whether DoD goals, objectives, plans, and guidance for executing
           security cooperation programs in Iraq through the OSC-I performing under
           DOS/Chief of Mission authority are issued and sufficiently operative;
      •    determine whether the OSC-I is adequately structured and resourced to
           accomplish its security assistance/security cooperation mission;
      •    identify impediments to OSC-I mission accomplishment and provide suggested
           recommendations; and,
      •    assist the DOS OIG in assessing the process used to determine short-term and
           long-term OSC-I staffing requirements.

Strategic Partnership and U.S. Military Withdrawal
In February 2009 the President stated that, at the end of 2011, the U.S. would withdraw
from Iraq in accordance with the existing Security Agreement that was signed with its
government in 2008. However, the U.S. remained committed to an enduring strategic
relationship between the two countries. This partnership was expressed and supported
through the Strategic Framework Agreement, also signed in 2008, that stated the goal of a
long term relationship between the U.S. and the Republic of Iraq was:

                   …strengthening and development of democracy in Iraq, as well as ensuring that Iraq will
                   assume full responsibility for its security, the safety of its people, and maintaining peace
                   within Iraq and among the countries of the region.

The Security Agreement stipulated a complete U.S. military withdrawal from Iraq by the
end of 2011. It also specified the status, principal provisions, and requirements that
would regulate U.S. military forces during their temporary presence within Iraq through
the period of their withdrawal at the end of December 2011. The President’s plan was to
reduce the U.S. military to a force of about 35,000 by August 2010 which would remain
through the end of 2011 for the purpose of training, equipping, and advising the ISF. The
U.S. Government sought a follow on bilateral security agreement 1 with Iraq that included
necessary privileges and immunities for those DoD personnel who would not be assigned
to the U.S. Embassy but who would operate in Iraq after the withdrawal of U.S. military
forces. The inability of the two governments to reach such an agreement impeded post-
2011 efforts to further defense cooperation relations.

Department of Defense Security Cooperation Overview
Security Cooperation – Security Assistance
Security cooperation consists of Department of Defense interactions with foreign defense
establishments to build defense relationships that promote specific U.S. security interests,
develop friendly military capabilities, and provide U.S. forces with peacetime and



1
    These type agreements are commonly referred to as Status of Forces Agreements, or SOFAs.


                                                       2
contingency access to a host nation. Security cooperation activities are implemented by
DoD in coordination with the U.S. Chief of Mission in a partner nation (see Appendix D).

Security assistance administered by DoD is an important set of programs, but is only a
portion of the many security cooperation programs involving DoD elements. The
security assistance programs that DoD administers generally fall under DOS lead
authority in an embassy, but are collectively considered a subset of security cooperation
that is governed by provisions of United States Code (U.S.C.) 22 (see Appendix D).

The Defense Security Cooperation Agency (DSCA) is responsible for managing many
DoD international programs through close coordination with security cooperation
organizations (SCOs). SCOs, such as OSC-I, are important in-country points of contact
that coordinate and assist in managing security cooperation activities between the U.S.
and host nation governments, but geographic combatant commanders (GCCs), among
other DoD elements, typically support and execute the major security cooperation
activities within their respective theater of operation.

DoD Directive 5132.03, DoD Policy and Responsibilities Relating to Security
Cooperation, indicates that security assistance and security cooperation activities were
fundamental to achieving longer-term U.S. goals in Iraq. That policy states:

                 Security cooperation, which includes DoD-administered security assistance programs, is
                 an important tool of national security and foreign policy and is an integral element of the
                 DoD mission. Security cooperation activities shall be planned, programmed, budgeted,
                 and executed with the same high degree of attention and efficiency as other integral DoD
                 activities. Security cooperation requirements shall be combined with other DoD
                 requirements and implemented through standard DoD systems, facilities, and
                 procedures. 2

Broad Range of Security Cooperation Efforts
Besides security assistance, DoD has global responsibility for implementing a broad
range of security cooperation programs (see Appendix D). To conduct those activities, it
typically utilizes personnel from many DoD elements and numerous existing
programmatic authorities. For example, in its area of operations, U.S. Central Command
(USCENTCOM) has a major role implementing programs that are generally categorized
as Combined Exercises and Military-to-Military Contacts.

Military-to-Military Contacts refers to programs that are designed to encourage a
democratic orientation of defense establishments and military forces of other countries.
One such program, the Combatant Commander Initiative Fund, was used in the case of
Iraq to cover training, authority, and funding gaps for an interim period that occurred
when Iraq Security Forces Fund (ISFF) authority expired in September 2012. Another
program, Traditional Commander Activities (TCA), enables USCENTCOM to send
small military liaison teams to partner countries for military to military training purposes.


2
 DoD Directive 5132.03, “DoD Policy and Responsibilities Relating to Security Cooperation,” October 24,
2008.


                                                    3
It was unclear the extent to which and under what future security operating conditions
USCENTCOM planned to use its TCA security cooperation authority in Iraq. The
USCENTCOM Iraq Country Plan current at the time of this assessment did not address
that level of detail.

Statutory Security Cooperation Arrangements
The Foreign Assistance Act (FAA) of 1961, as amended, states that the President may
assign members of the U.S. Armed Forces to a foreign country to perform specific
security assistance functions. Congress also stipulated that advisory and training
assistance conducted by personnel assigned under the FAA shall be provided primarily
by other personnel who are not assigned under the FAA and who are detailed for limited
periods to perform specific tasks. 3

Security cooperation organizations are located in foreign countries to coordinate and
assist in managing security cooperation activities. In this regard, the OSC-I was unique
because, besides those responsibilities and unlike security cooperation organizations in
other countries, Congress also authorized it to conduct certain security cooperation tasks.

Security Sector Reform
Some of the security cooperation tasks that Congress authorized the OSC-I to conduct
were activities that DoD routinely used to support DOS or U.S. Agency for International
Development (USAID) Security Sector Reform (SSR) objectives. The SSR is a
comprehensive, integrated U.S. Government approach to working with partner nations in
such areas as defense and armed forces reform and national security planning and
strategy support, among others. The U.S. Government recognizes the importance that
well-developed partner nation security institutions have, particularly with respect to
enhancing the effectiveness of U.S. security assistance efforts, and thereby, the building
of long-term bilateral security relations. 4 A RAND Corporation study explains further
how DoD leverages security cooperation efforts to support SSR.5

Contingency to Post-Contingency Transition in Iraq
Authorities and Funding
By December 2011, DoD had led U.S. efforts in Iraq with respect to security and military
operations for nearly a decade. During that decade, Commander, USCENTCOM, with
the policy guidance of the Chief of Mission (CoM), had been responsible for directing all
U.S. Government (USG) efforts in support of organizing, equipping, and training the ISF.



3
  Foreign Assistance Act of 1961, as amended, §2321i, (a) and (b).
4
  Security Sector Reform, U.S. Agency for International Development, U.S. Department of State, U.S.
Department of Defense, February 2009, pp. 1 – 3, www.state.gov/documents/organization/115810,
accessed on January 30, 2013.
5
  What Works Best When Building Partner Capacity and Under What Circumstances?, RAND Monograph,
Christopher Paul, et. al., pp. 8 – 10; http://www.rand.org/pubs/monographs/MG1253z1.html accessed on
Feb 1, 2013.


                                                 4
To conduct contingency operations and support the development of ISF capability,
Congress provided DoD with specific authority and funding that supported execution of
operations, administration, and development of the ISF. For example, since 2005 the Iraq
Security Forces Fund (ISFF) had provided for the U.S. military to equip and train the ISF.
As Operation New Dawn (OND) ended in December 2011, DoD concluded contingency
operations and transitioned lead responsibility for directing USG efforts that supported
organizing, equipping, and training the ISF to DOS and CoM authority. This transition
produced major changes, as well as associated challenges.

Major Department of Defense Post-contingency Support
Toward the close of 2010, DoD was asked to continue providing major support for U.S.
Mission activities in Iraq. In January 2011, the Secretary of Defense approved a DOS
request that DoD assume responsibility for security of DoD personnel in Iraq after
December 31, 2011, as well as for managing several operating sites (hereinafter referred
to as DoD managed field sites). CoM and USCENTCOM signed a memorandum of
agreement (MOA) in January 2012 that further delineated the tasks each agency would
accomplish regarding sustainment, support, and security at the DoD managed sites.
Figure 1 depicts the geographical distribution of those sites and scope of DoD’s
investment of personnel utilized to accomplish major functions at each one.

                                   Figure 1. DoD Managed Field Sites in Iraq

                                             DoD Managed Field Sites
       Site Name (Total Site Population Personnel #)
       Site Function(s)

       Tikrit (625)
       Iraq Air Force initial entry training and Iraq Air Force
       College.

       Taji (1363)                                                                                                   KIRKUK
       Major depot for repair parts and the central shipping
       address for nearly all FMS cases; center of professional
       schools for the Iraq Army; site of the most advanced                       Baghdad                TIKRIT
       maintenance workshops in Iraq.
                                                                                                              TAJI
       Kirkuk - TRANSITIONED
                                                                                                                      BESMAYA
       Embassy Military Attaché and Security Assistance                                               EMASSA
       Annex (EMASAA) (990)
       Central hub for all OSC-I activity, located across the
       U.S. Embassy-Baghdad compound and close to the
       office of the Iraqi Federal Police, Ministry Of Defense
       headquarters, and other ministerial offices.

       Umm Qasr (236)
       Support for Iraq Navy missions, FMF cases, and
       sustainment-related cases.
       Besmaya (823)                                                                                                            UMM QASR
       Armor school and site of M1A1 tank de-processing,
       training, and fire-control simulator, as well as the most
       advanced gunnery range in Iraq.


                                                          Data obtained from OSC-I and current as of Nov 4, 2012



      Source: OSC-I, November 4, 2012.




                                                                              5
Special Congressional Authority
Congress granted the OSC-I authority to conduct training and advising activities in Iraq
that other DoD elements, like USCENTCOM, would have normally performed in a
country where the U.S. Government maintained a defense cooperation presence. The
Department of Defense and Full-Year Continuing Appropriations Act, 2011 initially
extended ISFF authority beyond the end of the contingency which allowed the U.S.
military to continue providing assistance “including the provision of equipment, supplies,
services, training, facility and infrastructure repair, and renovation” until that authority
expired on September 30, 2012. At that point, USCENTCOM used an existing DoD
program authority and funding—Combatant Commander Initiative Fund (CCIF) 6 —to
sustain OSC-I training activities until the National Defense Authorization Act (NDAA)
for Fiscal Year 2013 was enacted. That NDAA, signed in early January 2013, allowed
the OSC-I to:

                   …conduct non-operational training activities…in an institutional environment to address
                   capability gaps, integrate processes relating to intelligence, air sovereignty, combined
                   arms, logistics and maintenance, and to manage and integrate defense-related
                   institutions. 7

Organizational Structures and Lines of Communication
During Operation Iraqi Freedom (OIF), DoD utilized operational military organizational
structures, procedures, and lines of communication to conduct its operations. This
typically included deferring implementation of ISFF authorized activities to the joint
operational military headquarters in Iraq. As an example, DoD tasked USCENTCOM
with conducting the transition and implementation of the U.S. force withdrawal from
Iraq, but USCENTCOM deferred most detailed transition planning and execution to U.S.
Forces–Iraq (USF-I). By late 2010, USF-I was responsible for executing Operation New
Dawn, which included withdrawing U.S. forces, transitioning responsibilities to DOS,
and, ultimately, establishing OSC-I in 2011.

After the contingency ended in December 2011, DOS implemented activities through
diplomatic means, procedures, and lines of communication in order to further establish
the U.S. Mission Iraq. As DoD withdrew all troops and its operational command
headquarters from Iraq, it continued to conduct significant activities that DOS would
have ordinarily performed. For example, with respect to the Secretaries of State and
Defense agreement regarding the security of DoD personnel in Iraq, DoD delegated
considerable responsibility for fulfilling the terms of that agreement to USCENTCOM
and, subsequently, to OSC-I.

Integration of the Office of Security Cooperation–Iraq
The OSC-I integration into the U.S. Embassy-Baghdad (USEMB-B) under CoM
authority was planned to occur prior to contingency operations ending. USF-I Operations
Order (OPORD) 11-01 stipulated that, by the time the OSC-I reached full operational


6
    U.S.C. 10 §166a, see Appendix C for more detailed information regarding CCIF.
7
    NDAA FY 2013, Section 1211, electronic page 351-352.


                                                     6
capability (FOC), no later than October 1, 2011, the OSC-I was to integrate into
USEMB-B operations, processes, and procedures. Integration into the U.S. Mission is
the normal posture for DoD security cooperation organizations.

To facilitate the transition from contingency operations, USCENTCOM provided latitude
to USF-I to plan and execute the establishment of OSC-I. USF-I OPORD 11-01 included
several tasks for establishing the OSC-I that incorporated shared oversight and
responsibility of its activities between the U.S. Mission and USCENTCOM. For
example, OPORD 11-01 tasked the USF-I Deputy Commanding General for Advising
and Training (DCG A&T) with establishing the OSC-I. That OPORD also designated the
DCG A&T to become Chief of the OSC-I and directed that USF-I transition its function
of advising and training the ISF to the OSC-I by the time contingency operations ended.

DOS was expected to assume key lead responsibilities after contingency operations
ended and OSC-I was to be a subordinate organization of the U.S. Mission. However,
DOS did not receive funding to perform all required post-contingency responsibilities
which resulted in DOS and CoM requesting assistance from DoD and USCENTCOM to
provide security and logistics support at sites where OSC-I personnel resided and the
OSC-I conducted its activities. The follow-on memorandum of agreement delineated the
tasks each agency would accomplish to sustain, support, and secure its respective sites
(see next section below and Appendix C, Memorandums of Agreement and
Understanding). OSC-I became directly and uniquely involved in supporting significant
DOS as well as DoD functions essential for implementing both security cooperation and
security assistance activities.

Interagency Memorandum of Agreement
OSC-I being responsible for major additional duties produced a unique interagency
division of labor in Iraq. In anticipation of the USF-I withdrawal, the U.S. Mission asked
for and received additional enabler support from DoD for numerous activities that were
not security cooperation or security assistance related. This included communications,
explosive ordnance disposal, and intelligence expertise. To varying degrees, the OSC-I
acted as the in-country DoD agent regarding support, management, and oversight of these
activities. OSC-I was also responsible for operating the DoD managed field sites (which
DoD also financed) that supported delivery of defense articles, services, and training
through security assistance programs and where OSC-I and other DoD personnel resided.
All of these factors led to the National Security Council (NSC) Deputies Committee
approving an expanded OSC-I and DoD providing an increased number of personnel
commensurate with its enhanced mission.

CoM and USCENTCOM entered into a formal memorandum of agreement in January
2012 to implement the terms of the Secretaries of State and Defense agreements. 8
Procedures at the OSC-I sites differed substantially from those managed by DOS,
including security posture of the personnel at the sites and logistical support.


8
    See Memorandums of Agreement and Understanding, Appendix C, for additional information.


                                                   7
Privileges and Immunities
The security situation created by the uncertain environment 9 and lack of a status of
forces agreement made DoD and USCENTCOM reluctant to deploy personnel to Iraq,
other than those assigned to the embassy. This was because those personnel would not
have specific diplomatic status or important privileges and immunities that a formal
security agreement may have conferred. OSC-I personnel had a form of diplomatic status
that differed from other DoD personnel in Iraq that operated under USCENTCOM
authority. OSC-I personnel were assigned as administrative and technical staff of the
U.S. Mission under CoM authority, 10 which provided them a formal status with
privileges and immunities when on official duty. DoD therefore coordinated with DOS
and the U.S. Mission to allow the OSC-I to conduct certain security cooperation and
other related support activities. Congress granting OSC-I the authority to conduct those
certain security cooperation and security assistance activities, which DoD, the DOS, and
the U.S. Mission agreed were important at the time, enabled accomplishment of those
activities in a manner that addressed DoD personnel security requirements.

Security Cooperation Strategy and Planning
                 Figure 2. Office of Security Cooperation–Iraq Strategy




                       NSS – National Security Strategy   MSRP – Mission Strategic Resources Plan
                       NMS – National Military Strategy   TCP – Theater Campaign Plan
                       ICP – Iraq Country Plan            ILE – Iraqi Leader Engagement
                       ISF – Iraq Security Forces         USM –I – U.S. Mission Iraq


       Source: OSC-I


9
  Uncertain environment. JP 1-02, November 8, 2010, as amended through April 15, 2013. See Appendix
C.
10
   U.S. Department of State, U.S. Department of State Foreign Affairs Manual Volume 2, July, 2013.
http://www.state.gov/m/a/dir/regs/fam/02fam/0200/index.htm. See also Appendix C, Privileges and
Immunities for additional information regarding this diplomatic status.


                                                                           8
As of November 2012, the OSC-I had developed a mission statement and strategy
framework that reflected national and U.S. Mission Iraq, as well as USCENTCOM
Theater Campaign Plan and Iraq Country Plan objectives (see Figure 2). The lines of
effort (that is, the large horizontal arrows in Figure 2 that indicated key focus areas)
specifically included conducting security cooperation activities that supported ISF
professionalization and leader development in support of strategic partnership goals and
objectives. In general, these security cooperation activities supported Security Sector
Reform, the previously mentioned U.S. Government initiative for furthering host nation
security sector development efforts. 11

Ongoing Transition of Responsibilities in Iraq
By November 2012, nearly a year after contingency operations ended, DOS-directed
personnel reductions at U.S. Embassy Iraq required accelerating control of DoD managed
field site facilities back to the Iraqi government, completing the transition of
responsibilities for providing various types of logistical and specialized DoD support
from DoD to DOS, and integrating the OSC-I into the U.S. Mission.

The depiction in Figure 3 summarizes how authorities, funding, organizational structures,
and lines of communication changed when contingency operations ended in Iraq at the
end of 2011 and the post-contingency operating environment began, albeit not yet a
normal, steady state peacetime situation. It also projects how these factors may
eventually evolve and emphasizes important conditions that existed when the DoD OIG
team visited Iraq in late 2012.

                Figure 3. Transition of DoD and DOS Responsibilities in Iraq




               Source: DoD OIG SPO.


11
     See Size of the OSC-I, Appendix C, for additional background information.


                                                      9
Key conditions that applied during the DoD OIG assessment included:

     •   uncertain, less than fully permissive security environment;
     •   factional host nation government;
     •   different DOS and DoD support and security cooperation implementation
         arrangements and procedures than found in other countries where a SCO resides;
     •   immature U.S.-Iraq partnership and inter-governmental relationships; and,
     •   no status of forces agreement.

State Department Staffing Reductions
According to DOS OIG reporting, DOS used a multi-phased, percentage-based approach
to reduce U.S. Mission staff personnel in Iraq from 16,298 to a planned 6,320 by January
2014. Instead of fully considering U.S. foreign policy priorities, DOS and Embassy
Baghdad applied three primary approaches to achieve an overall 61 percent staffing
reduction—across-the-board reductions for direct hire staff and some security
contractors, reductions in the amount of life support services provided, and the closure of
sites throughout Iraq outside of the main embassy compound in Baghdad. Specifically,
DOS directed that the following series of staff reductions be achieved by the indicated
dates:

     •   October 2012: a 17 percent across-the-board reduction of direct hire staff, a 25
         percent reduction in security staff, and the closure of the Baghdad Police
         Academy Annex and the Mission facilities in Kirkuk.
     •   October 2013: a cumulative 25 percent across-the-board reduction of direct hire
         and contractor staff, the closure of most of the Embassy Annex Prosperity work
         site, and the closure of the Erbil Diplomatic Support Center.
     •   January 2014: a cumulative 61 percent reduction of direct hire and contractor
         staff, primarily as a result of additional site closures, for a final total of 6,320
         staff. 12

By October 2012, DOS included the OSC-I in its U.S. Mission personnel reduction
efforts. The largest reduction of overall OSC-I personnel involved transitioning all DoD
managed and financed field sites back to the government of Iraq. Site transitions were to
occur by the end of December 2013 and included physically consolidating the core
OSC-I element, which was at Embassy Military Attaché and Security Assistance Annex
(EMASAA), into the Baghdad Embassy Complex (BEC).

Discussions with DoD and DOS personnel regarding the impact of OSC-I personnel
reductions revealed differing views concerning the role and scope of the OSC-I mission
and its objectives. For instance, the Department of Defense and Full-Year Continuing


12
   “Audit of the U.S. Mission Iraq Staffing Process,” United States Department of State and the
Broadcasting Board of Governors Office of the Inspector General, AUD-MERO-13-33, August 2013, pg.
7.


                                                10
Appropriations Act, 2011 initially extended the ISFF authority that enabled OSC-I to
conduct security cooperation and authorized funding for those activities through
September 30, 2012. By that time the OSC-I had expanded to about 260 core billets.
The NDAA for FY 2013 eventually extended some of the OSC-I ISF training provisions
and funded the expanded OSC-I through September 30, 2013.

Regardless, some in DOS and DoD viewed the OSC-I size as too large in relation to other
security cooperation organizations, overreaching in the number of security cooperation
and support activities it was performing, and wanted to reduce its personnel numbers.
However, military leaders charged with implementing security cooperation in Iraq
perceived a continuing need for the OSC-I to conduct priority security cooperation
activities that other DoD elements were precluded from performing because of a lack of a
status of forces agreement. In addition, the DoD-DOS arrangement allowed for the OSC-
I performing certain mission support activities. The combination of increased mission
and support responsibilities required more personnel than would be authorized under the
personnel reduction plan. Lack of common definitions and terminology with respect to
the role of security cooperation and the various DOS and DoD transition activities tended
to perpetuate these two differing viewpoints.

There was no commonly shared view of what a normal U.S. Mission presence consisted
of in Iraq. OSC-I goals included ultimately achieving a “normalized configuration” (see
Figure 2 on page 8, the last Desired Operational State in the bottom right corner), and the
immediate DOS-directed personnel reductions were aimed at achieving a “more
normalized embassy presence.” However, there was no specific agreed-upon definition
for what a normalized U.S. Mission presence or configuration is or whether the personnel
reduction plan scheduled for OSC-I was consistent with implementing U.S. defense
cooperation and strategic partnering objectives with respect to Iraq. In an October 2012
interview with the DOS OIG, the U.S. Ambassador to Iraq stated that normalization was
“less of a defined term than a mental concept of acknowledging that we are not normal
now [and that a normal presence is when an embassy is] not breaking all the rules [and
that Iraq has moved] from being an exceptional to a more standard embassy.”

Moreover, there was no evidence of a clear consensus between DOS and DoD/OSC-I
regarding the security cooperation mission of the OSC-I, or the number of OSC-I
personnel necessary and drawdown timetable necessary to ensure it was accomplished.
One focus of this disagreement concerned the rate at which certain OSC-I mission and
support capabilities should be reduced to assume a more normalized state. To some in
DOS and DoD, achieving U.S. Mission staffing goals involved reducing the number of
OSC-I personnel to meet DOS personnel targets, while organizationally realigning its
functions to more closely resemble that of other SCOs. Military leaders tasked with
implementing security cooperation and building a bilateral partnership with Iraq in an
uncertain security environment favored a more deliberate planning process to determine
personnel reductions. To them, personnel reductions needed to be based on U.S. policy
priorities, resource requirements, and progress in developing defense cooperation that
fully considered the OSC-I’s ability to support USCENTCOM theater and Iraq-specific
planning objectives. OSC-I planners consequently wanted to ensure that the transition of



                                            11
DoD managed sites back to the government of Iraq occurred in a manner that enabled
effective follow-on, contractor-based security assistance activities at those locations as
they expected would be required.

Some DoD and DOS personnel considered 59 a notional baseline number of personnel
for what should comprise the OSC-I in order to accomplish its mission. However, an
OSC-I configured in that baseline manner would no longer be able to conduct security
cooperation in accordance with how its mission was then currently understood and
defined by OSC-I analysis. That baseline configuration would consist of 46 permanent
personnel to assist in coordinating and managing security assistance and 13 to assist in
coordinating and managing other security cooperation efforts.




                                             12
Observation 1. Scope of the Office of
Security Cooperation–Iraq Mission
The OSC-I lacked clearly defined responsibilities with respect to its security cooperation
mission in Iraq.

This occurred because the OSC-I, which functioned differently than other security
cooperation organizations, was not informed by theater and Iraq-specific country level
security cooperation plans that had been updated to reflect current DoD priorities and
operating realities. Further, updated planning details had not been coordinated with and
agreed to by the U.S. Mission, DOS, and DoD.

Additionally, DoD had not designated a Senior Defense Official/Defense Attaché
(SDO/DATT) at the U.S. Mission Iraq and had not otherwise clearly specified the roles
and responsibilities of the senior DoD official assigned to Iraq.

Lack of clearly defined responsibilities inhibited focused efforts by the OSC-I and unity
of effort between the OSC-I and the U.S. Mission. A clearly focused and scoped security
cooperation role, informed by current geographic military theater and Iraq-specific
security priorities like those that updated plans would have provided, was needed.
Without that basis, the OSC-I and U.S. Mission were at risk of not accomplishing
security cooperation program activities important to the development of bilateral security
relations with Iraq.

Applicable Criteria
DoD Directive 5132.03, “DoD Policy and Responsibilities Relating to Security
Cooperation,” October 24, 2008.

Defense Security Cooperation Agency Manual 5105.38-M, “Security Assistance
Management Manual,” updated through April 2013 (http://www.dsca.osd.mil/samm/).

Joint Publication 5-0, “Joint Operation Planning,” August 11, 2011.

Foreign Affairs Act of 1961, as amended, “Legislation on Foreign Relations Through
2008,” Section 515, March 2010.

Discussion
The Conduct of Security Cooperation in Iraq
Security cooperation organizations normally function as part of the diplomatic staff at the
various U.S. embassies under CoM authority and primarily serve as in-country points of
contact between the U.S. Government and the host nation. While those organizations




                                            13
                                assist in coordinating and supporting security cooperation
     Security cooperation       efforts, other DoD elements 13 typically manage the various
     organizations do not       security cooperation programs and conduct implementation
      normally conduct          activities. Arrangements between DOS and DoD for
     security cooperation       conducting security cooperation in Iraq were unlike those in
                                other countries. 14

The OSC-I was responsible for conducting security cooperation activities in Iraq that
other DoD elements, including the Combatant Command, would have normally
performed in a country where the U.S. Government maintained a defense cooperation
presence. Without a status of forces agreement, DoD was hesitant to deploy personnel to
Iraq because they would lack privileges and immunities that DoD required. As
administrative and technical staff of the U.S. Mission under Chief of Mission authority,
OSC-I personnel had a form of diplomatic status that other
DoD personnel who operated under USCENTCOM authority                  The OSC-I was
in Iraq did not possess. 15 This included a form of formal            responsible for
diplomatic privileges and immunities when on official duty.        conducting  security
To mitigate DoD security concerns, DOS agreed to allow the        cooperation activities
OSC-I to conduct some security cooperation activities that          in Iraq that other
DoD considered essential to supporting priority regional and       DoD elements would
Iraq-specific military security objectives.                           have normally
                                                                        performed
OSC-I officials often cited the ministerial training that its
Senior Advisors’ Group 16 conducted, as well as efforts to enhance Iraqi professional
military education as examples of such priority DoD security cooperation efforts. In
general, those efforts supported SSR, a U.S. Government initiative that sought to improve
a partner nation’s security and enhance security assistance effectiveness by developing its
leaders and institutions. SSR implementation guidance for DOS and DoD practitioners
stressed the importance of a comprehensive, fully integrated foreign assistance approach,
to include DoD security cooperation activities. 17,18

DoD leveraged the OSC-I in other unique ways. The CoM is usually responsible for U.S.
Mission staff, but the Secretaries of State and Defense agreed DoD would assume
responsibility for the security of its personnel in Iraq, as well as for supporting and



13
   Examples of those elements include combatant command, like USCENTCOM, military departments, and
OSD agencies. “The Management of Security Cooperation,” (Green Book) 32nd Edition, January 2013,
Defense Institute of Security Assistance Management, pg. 1-1.
14
   See the Introduction for additional information regarding security cooperation arrangements in Iraq.
15
   See Privileges and Immunities, Appendix C.
16
   See Senior Advisors’ Group, Appendix C.
17
   “Security Sector Reform,” U.S. Agency for International Development, U.S. Department of State, U.S.
Department of Defense, February 2009, pp. 1,3,&6, www.state.gov/documents/organization/115810.pdf,
accessed on January 30, 2013.
18
   “What Works Best When Building Partner Capacity and Under What Circumstances?,” RAND
Monograph, Christopher Paul, et. al., pp. 8 – 10; http://www.rand.org/pubs/monographs/MG1253z1.html
accessed on Feb 1, 2013.


                                                  14
managing various field operating sites. CoM and Commander, USCENTCOM signed a
MOA in January 2012 establishing separate responsibilities at diplomatic DOS properties
and DoD managed sites in Iraq. 19 The OSC-I, though still part of the diplomatic staff,
assumed many of those responsibilities, making it directly responsible to DoD for the
conduct of major security cooperation and other support activities. This arrangement,
which altered customary lines of authority and interactions between the U.S. Mission and
the OSC-I, caused the OSC-I to function somewhat autonomously with respect to the
conduct of these DoD functions (see Observation 3).

OSC-I officials were concerned that reducing or eliminating their ability to conduct
certain priority security cooperation activities would jeopardize attaining desired security
objectives in Iraq, at least as long as other DoD elements were precluded from
performing those activities. Some other DOS and DoD officials did not share that
concern, but, in certain instances, those officials also did not fully appreciate the security
cooperation activities that DoD had planned for Iraq post-2011. For example, senior U.S.
Mission officials that questioned the utility of OSC-I’s Senior Advisors’ Group activities
were unaware that the USCENTCOM Iraq Country Plan, a major source of DoD security
cooperation objectives, priorities, and other details for Iraq, included those type activities
as key tasks.

Planning and Coordination
The lack of updated USCENTCOM Theater Campaign and Iraq Country Plans was a
main factor impeding overall unity of effort with respect to the OSC-I mission and
resources required for accomplishing it. As of January 2013, those plans were dated
                             January 2012 and October 2011, respectively. However,
         Operating           after contingency operations ended in December 2011 and
    arrangements and         DoD transitioned its lead authority for development of ISF
    conditions in Iraq       capability to DOS, command and support relationships
       had changed           between DOS and DoD, to include authorities and the
    considerably since       operational environment and conditions in Iraq, changed
   USCENTCOM had             considerably. It was thus unclear whether those plans
      issued its latest      reflected current DoD priorities or operating realities. For
   Theater Campaign          example, as of February 2013, evidence provided to the DoD
    and Iraq Country         IG showed that the OSC-I mission, strategy, and security
           Plans             cooperation activities and the Iraq Country Plan reflected
                             senior leader professional development and focusing on
improving ISF intelligence fusion and dissemination as essential tasks for meeting
Theater Campaign Plan intermediate military objectives. At that time, USCENTCOM
officials indicated they had no plans to deploy personnel to perform those tasks if the
OSC-I personnel capability to do so was eliminated. USCENTCOM officials stated that
Iraq would either have to pay to have the activities performed, as normal security
assistance programs required, or else they would not be accomplished. As a




19
     See Memorandums of Agreement and Understanding, Appendix C.


                                                 15
consequence, OSC-I officials were uncertain whether higher DoD echelons shared the
same objectives and priorities they had identified at their level.

Updated USCENTCOM Theater Campaign and Iraq Country Plans are necessary to
frame, clarify, and verify current strategic and operational guidance and theater
objectives for implementation at OSC-I levels. Besides revised objectives, assumptions,
and operating conditions, updated planning details needed to include additional specifics
related to contingency options 20 that addressed important variations in conditions and
assumptions that were most likely to impact achieving desired outcomes. Details also
needed to provide updated criteria, with measures of effectiveness and measures of
performance for assessing progress towards meeting the desired states. In January 2013,
one senior USCENTCOM official stated the Iraq Country Plan needed updating but did
not specify when that would occur. That official also noted that USCENTCOM was to
get a new commander, which could delay the revision of those plans.

Coordinating updated USCENTCOM planning details with
the U.S. Mission, DOS, and DoD would have facilitated               Coordinating
effective communication and mutual understanding of the                 updated
OSC-I mission. Senior OSC-I leaders have initiated                 USCENTCOM
dialogue with higher DoD echelons and with the U.S.             planning   details with
Mission to clarify strategic guidance, responsibilities, and         and seeking
priorities, but with limited success. In addition to the lack    agreement    between
of current USCENTCOM plans, agencies and sections at              the U.S. Mission,
the U.S. Mission had not received DOS guidance                     DOS, and DoD
regarding functions, factors, or skills to consider when         would have helped
eliminating personnel or positions. This included OSC-I           facilitate effective
personnel and positions (see Observation 2). In addition,          communication
neither DOS nor the U.S. Mission had developed a
specific, agreed-upon definition for what constituted a normalized diplomatic presence,
particularly as it would apply to OSC-I.

Designating a Senior Defense Department Official in Iraq
DoD did not designate a SDO/DATT at the U.S. Mission in Iraq, which further
contributed to a lack of clearly defined OSC-I responsibilities. DoD Directive 5105.75,
“Department of Defense Operations at U.S. Embassies,” stipulates that:

                Unified DoD representation in U.S. embassies is critical to the accomplishment of
                national security objectives….[and that]…The SDO/DATT is the CoM’s principal
                military advisor on defense and national security issues, the senior diplomatically
                accredited DoD military officer assigned to a U.S. diplomatic mission, and the single




20
  This is commonly referred to as branch, or sequel, planning. JP 1-02, “Department of Defense
Dictionary of Military and Associated Terms,” November 8, 2010 (as amended through December 15,
2013), pp. 33 and 264.


                                                16
                point of contact for all DoD matters involving the embassy or DoD elements assigned to
                or working from the embassy. 21

That directive enumerates specific responsibilities of the SDO/DATT, 22 and further
identifies the Under Secretary of Defense for Policy as the official that appoints selected
officers to that position, on behalf of the Secretary of Defense.

In February 2012, USCENTCOM formally requested the Director for Strategic Plans and
Policy, Joint Staff, support concurrently designating the Chief of the OSC-I as SDO in
Iraq. Justification for Secretary of Defense making that determination included creating a
single point of contact for both DoD and CoM to facilitate intra- and inter-departmental
communication, as stipulated by DoD Directive 5105.75. Despite numerous staff
exchanges regarding this request over ensuing months, as of April 2013, DoD had not
appointed neither an SDO/DATT nor an SDO in Iraq.

Conclusion
While authorized to conduct security cooperation and an expanded range of support
activities, DOS and DoD officials disagreed about the scope of OSC-I activities. In
relation to other security cooperation organizations, some in DOS and DoD viewed the
OSC-I as too large and overreaching in the number of mission and support activities it
performed. Military leaders charged with executing security cooperation in Iraq valued
the OSC-I for conducting priority activities that other DoD elements were precluded from
performing.

Failure to establish consensus regarding the scope of the OSC-I mission and support
responsibilities that reflected the full range of planned DoD security cooperation
priorities inhibited accomplishing efforts important to developing the Iraqi government’s
security sector and furthering bilateral security relations with Iraq. Disagreement
between DOS and DoD officials detracted from overall unity of effort and resulted in
mixed signals, confused mission objectives, and unclear lines of authority, particularly in
Baghdad between the U.S. Mission and the OSC-I. Updated theater and Iraq-specific
country level plans were necessary to verify current priorities, otherwise reducing or
eliminating OSC-I capabilities increased the risk that important DoD security cooperation
efforts in Iraq would not be accomplished. Further, incomplete planning and
coordination exacerbated inter- and intra-agency communications, especially since there
was no specific, agreed-upon definition for what constituted a normalized U.S. Mission
presence.

Until other DoD elements can perform their usual activities, restricting OSC-I ability to
perform key activities would compromise accomplishment of U.S. strategic military
objectives. It would inhibit developing the ISF, especially development of Iraqi senior



21
   DoD Directive 5105.75, “Department of Defense Operations at U.S. Embassies,” December 21, 2007,
pg. 2.
22
   See Appendix D for a listing of SDO/DATT responsibilities. Ibid, pp. 7-8.


                                                 17
leaders and Iraqi institutions, which were fundamental to DoD supporting critical U.S.
national level interests.

Recommendations, Management Comments, and Our
Response
Recommendation
1.a. Under Secretary of Defense for Policy, in coordination with Department of State
counterparts and Commander, U.S. Central Command:

       1.a.(1) clearly specify the nature and scope of Office of Security Cooperation–
Iraq mission activities, to include security assistance, as well as necessary security
cooperation activities;

Management Comments
Under Secretary of Defense for Policy. In responding for the Under Secretary
of Defense for Policy, the Principal Director for Middle East Policy agreed but did not
further specify the action they had taken or planned to take to implement the
recommendation.

Our Response
Under Secretary of Defense for Policy comments were partially responsive. Although
agreeing, comments did not specify the action they had taken or planned to take to
implement the recommendation. We therefore request that the Under Secretary of
Defense for Policy provide additional comments to the final report that clearly specify the
nature and scope of Office of Security Cooperation–Iraq mission activities, to include
security assistance and other security cooperation activities necessary for achieving U.S.
Central Command Theater Campaign Plan and Iraq Country Plan objectives within the
uncertain environment that exists in Iraq.

Recommendation
1.a. Under Secretary of Defense for Policy, in coordination with Department of State
counterparts and Commander, U.S. Central Command:

         1.a.(2) take action to ensure interagency information exchange at all DoD
echelons is sufficient to effectively plan and execute approved security cooperation
activities in Iraq, to include defining a normal Office of Security Cooperation–Iraq
organizational construct with specific functions; and,

Management Comments
Under Secretary of Defense for Policy. In responding for the Under Secretary
of Defense for Policy, the Principal Director for Middle East Policy agreed but did not



                                            18
further specify the action they had taken or planned to take to implement the
recommendation.

Our Response
Under Secretary of Defense for Policy comments were partially responsive. Although
agreeing, comments did not specify the action they had taken or planned to take to
implement the recommendation. We therefore request that the Under Secretary of
Defense for Policy provide additional comments to the final report that specify the action
they have taken or plan to take to ensure interagency information exchange at all DoD
echelons is sufficient to effectively plan and execute approved security cooperation
activities in Iraq. Response should sufficiently detail the specific functions that need to
be performed, as well as define an Office of Security Cooperation–Iraq organizational
construct that is appropriate for performing those functions within the uncertain
environment that exists in Iraq.

Recommendation
1.a. Under Secretary of Defense for Policy, in coordination with Department of State
counterparts and Commander, U.S. Central Command:

       1.a.(3) designate a Senior Defense Official with clearly specified and fully
coordinated responsibilities in Iraq.

Management Comments
Under Secretary of Defense for Policy. In responding for the Under Secretary
of Defense for Policy, the Principal Director for Middle East Policy agreed but did not
further specify the action they had taken or planned to take to implement the
recommendation.

Unsolicited Comments
Although not required to comment, Joint Staff provided the following comments. For the
full text of the Joint Staff comments, see Appendix F.

Joint Staff. In a consolidated Joint Staff response, the Deputy Director, Joint
Education and Doctrine, Joint Staff J-7, stated that Joint Staff J-5 agreed and that the
Chief of the Office of Security Cooperation–Iraq will perform Senior Defense Official
duties until the security cooperation office transitions to a traditional security office.

Our Response
Under Secretary of Defense for Policy comments were partially responsive. Although
agreeing, comments did not specify the action they had taken or planned to take to
implement the recommendation. We therefore request that the Under Secretary of
Defense for Policy provide additional comments to the final report that specify the action
they have taken or plan to take to officially designate a Senior Defense Official with
clearly specified and fully coordinated responsibilities in Iraq.



                                             19
Recommendation
1.b. Commander, U. S. Central Command issue an updated Theater Campaign Plan and,
in coordination with U.S. Chief of Mission in Iraq, an updated Iraq Country Plan.

Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director agreed and further stated that U.S.
Central Command issued an updated Theater Campaign Plan on March 15, 2013, with
revised security cooperation details for Iraq, as well as an updated Iraq Country Security
Cooperation Plan that was developed in coordination with Office of Security
Cooperation–Iraq and synchronized with the FY 2014 Department of State Mission
Resource Request for Iraq.

Joint Staff. Although not required to comment, a consolidated Joint Staff response
from the Deputy Director, Joint Education and Doctrine, Joint Staff J-7, stated that Joint
Staff J-5 agreed and that J-5 continued to coordinate with U.S. Central Command as that
command updates its theater and Iraq-specific plans.

Our Response
U.S. Central Command comments were partially responsive. We commend U.S. Central
Command for issuing updated plans with revised security cooperation details for Iraq.
We request that the command forward copies of those plans in response to the final report
for our review. Further, we request U.S. Central Command provide specific information
regarding the extent to which the U.S. Chief of Mission in Iraq agreed with the objectives
of the updated Iraq Country Security Cooperation Plan, resources required, and level of
risk that will be accepted to support accomplishing tasks and activities to achieve its
objectives.




                                            20
Observation 2. Sizing the Office of Security
Cooperation–Iraq
The ongoing process used by DOS to direct OSC-I personnel reductions has not fully
considered important DoD security cooperation mission objectives and priorities with
respect to Iraq.

This occurred because the DOS implemented its process for determining U.S. Mission
Iraq personnel reductions, which did not follow established DOS organizational
“rightsizing” methodology, as a primarily top-down directed initiative in which cuts were
made based on percentages and targets across assigned agencies without sufficient
consideration of their differing missions and resource requirements.

Moreover, reductions in OSC-I staffing were made without having first conducted a joint
DOS, CoM, DoD, and USCENTCOM coordinated analysis of U.S. defense relations-
building objectives with respect to Iraq and OSC-I’s defense cooperation role and
responsibilities in support of this mission.

As a result, OSC-I’s capacity to accomplish its mission could be impeded and therefore
its contribution to achieving U.S. bilateral policy objectives diminished.

Applicable Criteria
GAO-03-396, “Overseas Presence: Rightsizing Framework Can be Applied at U.S.
Diplomatic Posts in Developing Countries,” (Washington, D.C.: April, 2003).

Discussion
DOS OIG determined that the DOS process for determining U.S. Mission Iraq staffing
requirements did not fully consider U.S. foreign policy priorities specific to Iraq. Instead,
DOS and Embassy Baghdad primarily applied other approaches to reduce its staff
numbers that included across-the-board reductions for direct hire staff and some security
contractors, reductions in the amount of life support provided, and the closure of sites
throughout Iraq. 23 Consequently, even though the U.S. Mission Iraq and the OSC-I did
negotiate a reduced number of OSC-I personnel and developed a plan for achieving those
numbers by the end of fiscal year 2013, including the OSC-I in overall DOS staffing
reduction efforts could cause its staffing numbers and skill composition to be misaligned
with mission requirements and priorities.

The Rightsizing Framework and Methodology
DOS OIG reporting stated the GAO established a framework and methodology for
rightsizing embassies that aligns the number of staff with foreign policy priorities at


23
   “Audit of the U.S. Mission Iraq Staffing Process,” United States Department of State and the
Broadcasting Board of Governors Office of the Inspector General, AUD-MERO-13-33, August 2013, pg.
7.


                                                21
overseas diplomatic posts. 24 GAO defined rightsizing as aligning the number and
location of staff assigned overseas with foreign policy priorities and security and other
constraints. 25 One framework consideration that especially applied to OSC-I was: Are
any mission priorities not being addressed? 26

Oversight organizations had emphasized the importance of establishing mission priorities
for the purposes of determining overseas mission staffing. In a 2005 inspection, DOS
OIG cited the complexities of rightsizing in high-threat posts and reinforced the
importance of posts identifying mission priorities to serve as a baseline for determining
staff levels. 27 A more recent Secretary of State directed review on Benghazi, Libya, also
recommended that posts in high threat areas have a “defined, attainable, and prioritized
mission.” 28

Establishment of Broader U.S. Mission Priorities
DOS OIG determined that the U.S. diplomatic mission did not fully consider U.S. foreign
policy priorities or provide guidance to support its staff reductions. As reported by DOS
OIG, DOS may have established policy priorities for Iraq, but neither DOS nor embassy
                              officials in Iraq could show how staffing levels, whether for
   The U.S. diplomatic        overall staffing or for specific agencies and sections, were
      mission did not         systematically assessed using those priorities as criteria to
  establish priorities or     support the reductions. Nor had the U.S. Embassy
    provide guidance to       communicated sufficient guidance to agencies or its section
      support its staff       leaders on the factors to consider when selecting positions to
        reductions            eliminate. Sections and agency leaders consequently had to
                              apply their own criteria for determining which positions to
                              retain and which to eliminate. Most sections and agencies,
to include the OSC-I, initially eliminated unfilled positions, followed by those that had
recently, or soon would, become vacant. 29

According to DOS OIG reporting, DOS officials indicated that other considerations took
precedence over establishing mission priorities in the decisions to reduce U.S. Mission
Iraq staffing. DOS OIG reporting stated DOS officials indicated that congressional and
White House concerns over high costs and security vulnerabilities associated with
operating in Iraq were primary considerations for the staffing reductions instead of a



24
   Ibid, pp. 7-8.
25
   GAO-03-396,“Overseas Presence Rightsizing Framework Can Be Applied at U.S. Diplomatic Posts in
Developing Countries,” (Washington, D.C.: April, 2003).
26
   GAO-02-659T, “Overseas Presence: Observations on a Rightsizing Framework,” (Washington, D.C.:
May, 2002).
27
   Department of State Office of Inspector General, “Rightsizing the U.S. Government Presence Overseas:
A Progress Report,” ISP-I-06-11, December 2005.
28
   Mullen, et. al, “Accountability Review Board, Report on the Events of September 11, 2012, at the U.S.
Consulate General Benghazi, Libya (Unclassified),” U.S. Department of State, (Washington, D.C.: Dec. 18,
2012), http://www.state.gov/documents/organization/202446.pdf accessed on Feb. 15, 2013.
29
   Ibid, pp. 7, 9, and 14.


                                                  22
systematic analysis. 30 In regard to security vulnerabilities, the DOS OIG specifically
cited the DOS December 2012 Accountability Review Board report on the September
2012 attacks on various compounds in Benghazi, Libya, as reinforcing the need for, and
importance of, “defined, attainable, and prioritized mission[s]” to justify the risks and
operating costs. As reported to the DOS OIG, DOS officials indicated that these and
other factors influenced DOS in when and how they imposed staff cuts and precluded
completing an analysis that linked staffing requirements to priorities. 31

Potential for Position and Skill Gaps
DOS OIG determined that, without a systematic staffing analysis based on U.S. foreign
policy priorities specific to Iraq, DOS could not support that its planned staff size would
provide the proper number or skill mix of personnel needed to meet U.S. Mission
priorities while minimizing security risk and optimizing costs. In addition, across-the-
board reductions did not discriminate between specific functions, personnel skills, and
programs nor consider how agencies’ activities contributed to overarching U.S. policy
goals. Delegating staff reduction decisions without guidance on functional or
programmatic priorities also raised potential questions regarding the alignment of mission
priorities and staff skill requirements. 32 OSC-I officials indicated that it may have
eliminated positions and skills that were required for current and future security
cooperation activities and retained other positions and skills that were no longer needed.

OSC-I Mission Analysis
As of November 2012, the OSC-I was operating from a mission statement and strategy
framework that linked desired end states with the stated national and DoD theater level
objectives through four lines of operation (that is, areas of focused effort). 33 Each line of
operation broadly specified the security assistance and cooperation activities OSC-I
employed to promote related objectives (see Figure 2, Introduction). OSC-I officials
expressed a common understanding of the mission, activities, and objectives that had
been defined at their level. Notably, OSC-I’s mission set included conducting security
cooperation activities – a special case, unlike that found at other security cooperation
organizations (see Observation 1).

Though OSC-I determined its required activities through a deliberate mission analysis
process, that analysis was not based on updated USCENTCOM security cooperation
planning details. By February 2013, the USCENTCOM Theater Campaign Plan and Iraq
Country Plan were dated January 2012 and October 2011, respectively. By that time, as
part of its efforts to support the DOS-directed personnel reductions, the OSC-I had
completed its mission risk analysis for performing the activities necessary to achieve


30
   Congressional concerns included development and assistance programs. See S-PRT 112-34, “Iraq
Report: Political Fragmentation And Corruption Stymie Economic Growth And Political Progress,”
Minority Staff Trip Report to the Committee on Foreign Relations, U.S. Senate, 112th Congress,
(Washington, D.C.: April 30, 2012).
31
   Ibid, pp. 8, 12 – 13.
32
   Ibid, pp. 1, 9, and 15.
33
   OSC-I lines of operation. See Appendix C and Figure 2, Introduction.


                                                 23
Iraq-specific security cooperation objectives. But, that analysis was based on the
aforementioned USCENTCOM plans, versus updated planning details that had been fully
coordinated between DOS, CoM, DoD, USCENTCOM, and the OSC-I (see Observation
1).

OSC-I Personnel Reductions
DOS initially directed OSC-I reduce its staff of about 260 personnel by 60 billets around
the same time its authority to conduct advisory and training assistance expired on
October 1, 2012. At that time, DoD was coordinating with Congress to extend that
authority. OSC-I officials stated that, before language was incorporated into the NDAA
for FY 2013 and it was passed, USCENTCOM ordered the OSC-I to eliminate security
cooperation mission billets that included the term “assist” in their position descriptions.
The OSC-I identified and eliminated 27 billets that met that criterion. Shortly thereafter,
USCENTCOM also reportedly directed that the OSC-I eliminate another 20 billets from
its mission support sections (for example, personnel, logistics, and engineering). The
OSC-I also complied with that direction. As stated earlier, OSC-I initially cut unfilled
positions, followed by positions that had recently, or soon would, become vacant.

By February 2013, as a result of negotiations between the U.S. Mission and the OSC-I,
the CoM had directed and DoD had agreed to additional OSC-I reductions. That plan,
which was agreed to after the OSC-I completed its updated mission analysis, called for
reducing its personnel numbers to 170 by March 2013 and 125 by October 2013. Unlike
initial reductions, later reductions cut more deeply into OSC-I ability to perform various
functions. For instance, reducing from 170 to 125 billets decreased mission support
personnel by 36 percent, from 28 to 18; and, total security cooperation personnel by 25
percent, from 128 to 96.

Besides certain elements of security assistance that are generally DOS-led but DoD
executed, DoD is responsible for numerous other security cooperation programs (see
Introduction). DoD-led security cooperation efforts typically utilize other DoD
elements, 34 but Iraq’s security situation precluded those elements from conducting
activities they would have normally performed.

Coordination between DoD and DOS allowed OSC-I to conduct certain training and
advisory activities that were considered a priority. These priorities included security
cooperation activities such as the ministerial training that the OSC-I Senior Advisors’
Group conducted and other efforts to improve Iraqi professional military education.
Those priorities broadly supported Security Sector Reform, as well as promoted military-
to-military relations. If carried out as planned, nearly 95 percent 35 of the total security
cooperation billets to be eliminated would have supported those types of DoD-led
security cooperation, versus FMS security assistance, mission efforts.


34
   Other DoD elements included combatant commands, like USCENTCOM, Military Services, and other
OSD agencies.
35
   Of the total 32 security assistance and security cooperation billets eliminated, 30 supported DoD-led
security cooperation rather than DOS-led security assistance efforts (30 ÷ 32 = 93.75%).


                                                    24
Impact of State Department-directed Staffing Decisions
On the current path, OSC-I could become an organization equipped to do security
                          assistance with limited other security cooperation capability.
                          For example, plans to reduce OSC-I from 170 to 125 total
 OSC-I could become       billets eliminate 32 overall security assistance and cooperation
   an organization
                          billets–30 who were primarily working on DoD-led security
    equipped to do        cooperation efforts.
  security assistance
  with limited other      Given these projected staff reductions, by the end of fiscal
 security cooperation     year 2013 OSC-I did not expect to be able to conduct security
      capability          cooperation in the areas of Iraqi military leader development,
                            professional military education, and senior staff training
efforts. Those defense cooperation initiatives arguably supported the stated goal of
promoting a strategic relationship with Iraq, but, over the course of this assessment, no
DoD element, to include USCENTCOM, nor the CoM provided any systematic, mission
based analysis that substantiated the rationale for possibly terminating them.

Premature elimination of OSC-I mission support personnel specialists, like logisticians
and engineers, was another concern. Besides essential for transitioning DoD managed
sites back to the government of Iraq, which were scheduled to begin in March 2013, these
personnel provided critical mission support for the FMS security assistance program. As
an example, one senior OSC-I logistician interviewed in November 2012 stated half of
his total manpower was engaged in facilitating delivery of security assistance systems
and material. That official expected any further personnel cuts to have “significant”
impact. Overall, concerns were expressed to our team that OSC-I mission and support
personnel reductions could impede it from performing important security cooperation
activities in Iraq and potentially jeopardize accomplishment of related U.S. security
policy objectives.

Besides that of the OSC-I, the methodologies used by others within DoD for assessing
the impact of OSC-I personnel reductions and effectiveness were unclear. The NDAA
for FY 2013 mandated Secretary of Defense reporting on OSC-I progress. An initial
report was due 120 days from NDAA enactment with an update report due by September
30, 2013. Initial reporting required a description of measures of effectiveness for
evaluating OSC-I activities, and a discussion of the process for using those measures of
effectiveness to make determinations whether specific OSC-I activities should be
expanded, altered, or terminated. Despite attempts to secure the initially required
Secretary of Defense report information, as of June 2013 the DoD OIG had not been
provided that information. 36

Conclusion
The DOS process for determining OSC-I staffing reductions did not fully consider
important DoD mission objectives and priorities, and the necessary resources required.


36
     See NDAA (FY 2013) Mandatory Reporting, Appendix C.


                                                 25
This occurred because the staffing reduction process did not follow established DOS
“rightsizing” guidelines. Neither were these personnel cuts based on a joint, coordinated
analysis of OSC-I resource needs in relation to an updated agreement concerning its
operational goals and objectives. This consequently increases the potential that the OSC-
I staff reductions included positions and personnel important to advancing security
cooperation and security sector reform goals and objectives, which could inhibit
promoting the end state development of a strong strategic relationship with Iraq.

Recommendations, Management Comments, and Our
Response
Recommendation
2. Commander, U.S. Central Command, in coordination with Under Secretary of
Defense for Policy, U.S. Chief of Mission in Iraq, and Chairman of the Joint Chiefs of
Staff:

        2.a. identify and prioritize DoD security cooperation requirements needed to
support updated Iraq Country Plan objectives, to include numbers of personnel and skill
sets necessary to perform essential activities.

Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director agreed but did not provide information
regarding whether they had identified and prioritized DoD security cooperation
requirements or numbers of personnel and skill sets necessary to perform essential
activities.

Joint Staff. In a consolidated Joint Staff response, the Deputy Director, Joint
Education and Doctrine, Joint Staff J-7, stated that Joint Staff J-5 agreed and that J-5
coordination with the Under Secretary of Defense for Policy and U.S. Central Command
resulted in the “Report on the Activities of the Office of Security Cooperation–Iraq” and
U.S. Mission to Iraq “FY 2015 Mission Resource Request.” Joint Staff provided copies
of those documents in its response.

Our Response
U.S. Central Command comments were partially responsive. Although U.S. Central
Command agreed with the recommendation, it did not state whether the command had
identified and prioritized DoD security cooperation requirements or numbers of personnel
and skill sets necessary to perform essential activities. However, information and
documents forwarded by the Joint Staff, particularly the “Report on the Activities of the
Office of Security Cooperation–Iraq,” provided much of that information, except for the
personnel skill sets required.




                                           26
We request that U.S. Central Command respond to the final report by specifying the
personnel skill sets required to perform the essential activities outlined in Section 4 of the
“Report on the Activities of the Office of Security Cooperation–Iraq.”

Joint Staff comments were fully responsive. We commend the Joint Staff for the
completeness of its response and accompanying substantiating documentation. No
further Joint Staff response is required.

Recommendation
2. Commander, U.S. Central Command, in coordination with Under Secretary of
Defense for Policy, U.S. Chief of Mission in Iraq, and Chairman of the Joint Chiefs of
Staff:

        2.b. assess the risk to meeting theater and country-specific level planning
objectives that result from various models to resource the Office of Security
Cooperation–Iraq and other security cooperation requirements in Iraq.

Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director agreed and further stated that the
command assessed moderate risk in meeting theater and country-specific level planning
objectives with reduced personnel in the Office of Security Cooperation–Iraq. The
Executive Director also stated there was ongoing deliberative interagency planning
regarding the Office of Security Cooperation–Iraq scope and size, but that it was
scheduled to reduce its personnel strength to 127 by September 30, 2013 and to 59 by FY
2015.

Joint Staff. In a consolidated Joint Staff response, the Deputy Director, Joint
Education and Doctrine, Joint Staff, J-7, stated that Joint Staff J-5 agreed and that J-5
coordination with the Under Secretary of Defense for Policy and U.S. Central Command
resulted in the “Report on the Activities of the Office of Security Cooperation–Iraq” and
U.S. Mission to Iraq “FY 2015 Mission Resource Request.” Joint Staff provided copies
of those documents in its response.

Our Response
U.S. Central Command comments were partially responsive. Although U.S. Central
Command agreed and stated that it had assessed moderate risk with an Office of Security
Cooperation–Iraq comprised of reduced personnel, it did not state the specific number of
personnel or inclusive dates for which that assessment applied. Due to the dynamic
nature of the situation in Iraq, those details were essential to our assessment. While the
Joint Staff response did not specifically address risk assessment, additional information
provided was instructive in other ways.

Section 2 of the “Report on the Activities of the Office of Security Cooperation–Iraq”
summarized Office of Security Cooperation–Iraq personnel and funding requirements


                                             27
essentially at its September 30, 2013 configuration and numbers of personnel, stating that
level provided adequate capacity. It also, however, outlined a three-phase plan to
transition Office of Security Cooperation–Iraq activity costs to Foreign Military Sales
cases by FY 2015, transitioning primary responsibility for security cooperation to U.S.
Central Command and reducing the Office of Security Cooperation–Iraq footprint to
normalized levels—presumably around 59 personnel—by the end of FY 2014.

Although the report briefly mentioned using U.S. Central Command title 10 security
cooperation programs, it lacked details about the extent and under what conditions
traditional security cooperation authority, personnel, and program funding will be used to
offset challenges and mitigate risk to mission accomplishment if efforts to transition costs
to Foreign Military Sales case funding fall short.

In our judgment, Section 4 of that report presented a compelling case for sustaining the
Office of Security Cooperation–Iraq at its currently projected September 30, 2013
personnel level throughout FY 2014, versus reducing it to 59 personnel by FY 2015.
That section listed nearly a dozen critical security cooperation related activities that could
not be effectively transitioned to traditional security assistance or cooperation authorities
in the near-term and specified the number of personnel required to perform each activity.
The total number of personnel to perform all activities basically equaled the September
30, 2013 personnel levels, versus the normalized levels projected by FY 2015. Another
report section outlined an Office of Security Cooperation–Iraq assessment methodology,
but it also lacked sufficient detail for our assessment purposes.

We therefore request that, in addition to the information requested for Recommendation
1.b., U.S. Central Command respond to the final report with specific information
regarding its security cooperation mission risk assessment for Iraq. Response should
include strategy-to-objective-to-task, associated troop-to-task, and risk to mission
accomplishment analyses, as well as measures of effectiveness and actions U.S. Central
Command has taken or plans to take to mitigate risk to security cooperation mission
accomplishment in Iraq. Risk mitigation details should stipulate the extent and
conditions under which U.S. Central Command intends, and is prepared and resourced, to
implement traditional security cooperation authority, personnel, and program funding in
Iraq. Overall, specifics should be sufficient to determine whether the methodology used
to assess the effectiveness of Office of Security Cooperation–Iraq manning levels and
degree of rigor used in applying that methodology adhered to current policy guidance
and/or accepted best practices.

Joint Staff comments were responsive. We commend the Joint Staff for the completeness
of its response and substantiating documentation. No further Joint Staff response is
required.




                                             28
Recommendation
2. Commander, U.S. Central Command, in coordination with Under Secretary of
Defense for Policy, U.S. Chief of Mission in Iraq, and Chairman of the Joint Chiefs of
Staff:

        2.c. advise Chairman of the Joint Chiefs of Staff of risk assessment results in
order to inform the required Secretary of Defense reporting on the Office of Security
Cooperation – Iraq mandated by the National Defense Authorization Act for FY 2013.

Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director agreed with the recommendation but did
not state whether it had advised the Chairman of the Joint Chiefs of Staff of its risk
assessment results.

Joint Staff. In a consolidated Joint Staff response, the Deputy Director, Joint
Education and Doctrine, Joint Staff J-7, stated that Joint Staff J-5 agreed and that J-5
coordination with the Under Secretary of Defense for Policy and U.S. Central Command
resulted in the “Report on the Activities of the Office of Security Cooperation–Iraq” and
U.S. Mission to Iraq “FY 2015 Mission Resource Request.” Joint Staff provided copies
of those documents in its response.

Our Response
U.S. Central Command comments were non responsive. Specifically, the Inspector
General Executive Director did not state whether U.S. Central Command advised the
Chairman of the Joint Chiefs of Staff of its risk assessment results. Joint Staff response
and additional information did not specifically address whether the “Report on the
Activities of the Office of Security Cooperation–Iraq” was informed by U.S. Central
Command risk assessment results.

We therefore request that U.S. Central Command provide comments to the final report,
sufficient to determine whether it advised the Chairman of the Joint Chiefs of Staff of its
risk assessment results. Response should specify what, if any, risk assessment results it
reported, the period of time or specific date covered by those results, and when it advised
the Chairman of the Joint Chiefs of Staff.

Joint Staff comments were responsive. No further Joint Staff response is required.




                                            29
This Page Intentionally Left Blank




               30
Observation 3. Office of Security
Cooperation–Iraq Integration
Over a year after being declared fully operational capable, the OSC-I was not fully
integrated into the U.S. Mission Iraq as a subordinate element, by physical location or
through administrative processes.

This was caused by several factors.
   • Physically:
       o the OSC-I size was over 50 percent larger than originally planned in 2009, in
           part because in 2010 the U.S. Mission formally requested that DoD perform
           additional activities that were delegated to the OSC-I in 2011; and,
       o the Baghdad Embassy Complex could not accommodate this increased
           number of personnel due to facility constraints.
   • Administratively:
       o DoD did not clearly establish the OSC-I as a subordinate element of the U.S.
           Mission prior to the end of contingency operations as originally planned in
           2011;
       o OSC-I personnel charged with establishing effective interagency relationships
           and operating procedures between the OSC-I and the U.S. Mission were
           insufficiently trained for their responsibilities; and,
       o The standard operating procedures (SOPs) to achieve full administrative and
           operating integration had not been prepared jointly by the embassy and the
           OSC-I.

Not completely integrating the OSC-I into the U.S. Mission detracted from overall unity
of effort and contributed to DoD expending additional funding and personnel resources.

Applicable Criteria
U.S. Forces–Iraq Operation Order 11-01, Change 1, May 2011.

Memorandum of Agreement between Chief of Mission, U.S. Mission Iraq and
Commander, U.S. Central Command Regarding Security Responsibility, signed January
2012.

DoD Instruction 5132.13, “Staffing of Security Cooperation Organizations (SCOs) and
the Selection and Training of Security Cooperation Personnel,” January 9, 2009.

DoD Directive 5105.65, “Defense Security Cooperation Agency,” October 26, 2012.

DoD Directive 5105.75, “Department of Defense Operations at U.S. Embassies,”
December 21, 2007.



                                            31
Defense Security Cooperation Agency Manual 5105.38-M, “Security Assistance
Management Manual,” updated through April 2013 (http://www.dsca.osd.mil/samm/).

Discussion
USCENTCOM–Chief of Mission Memorandum of Agreement
                              DOS not receiving full funding to perform all required post-
        DoD-DOS               contingency responsibilities caused the Secretaries of
    Memorandum of             Defense and State to agree DoD would assume
    Agreement caused          responsibility for the security of its personnel in Iraq, as well
   OSC-I to appear as         as for funding and managing activities at certain sites there
     an independent           after the contingency ended. This also led to a
   element of the DoD         memorandum of agreement between the Chief of Mission
  instead of an integral      and USCENTCOM that codified OSC-I’s direct and unique
     part of the U.S.         involvement in numerous major DoD and DOS activities.
         Mission
                               The OSC-I was required to engage with DoD in order to
sufficiently to execute this agreement and received DoD fiscal and other resources to
accomplish it. Maintaining these ties with DoD may have delayed full integration with
the U.S. Mission. But, the necessity for OSC-I maintaining this relationship with DoD
during the transition in order to support DOS and the Mission apparently created the
impression with some officials in DoD, as well as in DOS, that the OSC-I was and
wanted to be a semi-independent element of DoD within Iraq instead of an integral part
of the U.S. Mission. The explanation for OSC-I’s unique role and resource requirements
was not fully understood by or sufficiently explained within DoD or DOS, nor between
OSC-I and the U.S. Mission. This led to inevitable organizational misunderstandings.

Size of the OSC-I
As the transition from a DoD to DOS lead security role in Iraq evolved, the OSC-I was
delegated additional mission and support activities that increased its staff size. As a
result of the DoD-DOS agreement, for example, the OSC-I assumed responsibility for
several unique activities, such as the Force Protection Detachment (FPD), Joint
Operations Center (JOC), Joint Intelligence Support Element (JISE), as well as an
expanded OSC-I mission support staff.

In a standard SCO operating environment, some of these type activities as well as the
execution of security cooperation would have been supported with personnel that were
temporarily assigned and deployed under geographic combatant commander
(Commander, USCENTCOM) authority. The OSC-I had to directly assume
responsibility for all of these activities, which required more staff to be assigned to it.
The staff size increased to a level that precluded it from fully integrating into the U.S.
Mission because of limited office facilities and accommodations at the U.S. Embassy’s
main facility.

As the possibility of having a follow-on U.S. military force presence in Iraq diminished,
the National Security Council (NSC) Deputies Committee approved an expanded OSC-I,


                                             32
which contributed to its inability to relocate to the Baghdad Embassy Complex. That
NSC Deputies’ approval occurred in late 2011, close to the time that the original planning
timeline called for the OSC-I to achieve FOC, transition to
CoM authority, and relocate to the BEC. While the USF-I         The increased size of
OPORD directed integrating the OSC-I into the U.S.               the OSC-I prevented
Mission by October 1, 2011, that planning was based on a           complete physical
                      37
smaller sized OSC-I. Initially retaining most of the core         integration into the
OSC-I and its expanded functional mission support                U.S.  Mission  as was
elements at EMASAA allowed for further growth, and the                 required
OSC-I assumed responsibility for even more activities and
elements that either directly supported the U.S. Mission or supplemented its capability.
This included elements, like the Joint Intelligence Support Element and the OSC-I Joint
Operations Center. The OSC-I consequently grew to over 260 total positions by
December 2011, which BEC facilities could not then support.

Some of this increased growth in size was attributed to DoD requiring personnel that
executed certain security cooperation efforts in Iraq to be assigned to the OSC-I. This
was so that those DoD personnel would have the necessary level of formal privileges and
immunities while performing their official duties (see Introduction and Observation 1).
The physical separation, although OSC-I and the U.S. Mission compound were located
across the street from one another (see Figure 4), facilitated OSC-I staffing to meet its
obligations but further emphasized its perceived segregation from, rather than integration
into, the U.S. Mission.

                     Figure 4. Separate U.S. Embassy and OSC-I Facilities




                   Source: DoD OIG SPO

Extended Mission Scope
OSC-I had additional security cooperation mission considerations than comparable
organizations in other countries. OSC-I maintained a heightened security posture that


37
     See Introduction and Appendix C, Size of the OSC-I.


                                                     33
resembled an operational contingency headquarters, rather than a security cooperation
partner. This occurred, at least in part, due to the DoD-DOS agreement regarding
managing the respective sites. While the U.S. Mission possessed various support
capabilities, one of its Regional Security Office (RSO) officials indicated that it lacked
the capacity to support the OSC-I, particularly given required tempo of OSC-I activities
and the distributed nature of its field sites (see Observation 2).

Some activities that the OSC-I conducted or supported did duplicate activities performed
by the U.S. Mission. For example, OSC-I provided its own security and transportation in
and around Iraq while the RSO of the U.S. Mission was also responsible for U.S. Mission
security matters. Additionally, the OSC-I operated a separate Joint Operations Center
that conducted operational coordination for OSC-I activities instead of relying on the
U.S. Mission Tactical Operations Center at the Baghdad Embassy Complex operated by
the RSO. This division of responsibilities, codified by the DoD-DOS agreement, was
confusing to the OSC-I and sections within the U.S. Mission that were unaccustomed to a
security cooperation organization performing these type functions.

The complexity of SCO mission responsibilities and relationships are challenging and
involve multiple interagency lines of communication and authority, as depicted in Figure
5. Achieving unity of effort in regards to effectively implementing security cooperation
in Iraq necessitated a fully coordinated and synchronized concept, plan, and set of
activities, especially between the OSC-I and the U.S. Mission.

                  Figure 5. SCO Responsibilities and Relationships




           Source: DoD OIG SPO

Although physical integration of the OSC-I into the U.S. Mission was planned to occur
by October 1, 2011, that had not been accomplished. In the interim, steps to
administratively integrate the functions, like development of standardized procedures
between the OSC-I and the U.S. Mission, were possible but, in November 2012 when the
DoD OIG team visited Iraq, not occurring according to a deliberate plan or timetable.



                                            34
Standard Operating Procedures
The OSC-I did not have a comprehensive plan, with a
timetable, for developing essential standard operating               OSC-I had not
procedures (see Appendix C). A previous DoD IG report            published SOPs that
(DODIG-2012-063) stated that neither USF-I nor OSC-I              would have assisted
had established interagency SOPs essential to support              in integration and
complete integration into the U.S. Mission. In November          clarification of roles,
2012 when the DoD IG team most recently visited Iraq, the        responsibilities, and
OSC-I did not have SOPs that directed crucial roles and               relationships
activities with the U.S. Mission.

Examples of missing required SOPs included standardized procedures that addressed:

   •   both administrative and operational functions;
   •   administrative responsibilities such as budgeting and cost sharing for sites and
       support services provided to OSC-I by the U.S. Embassy; and,
   •   force protection procedures at all DoD-managed field sites that required
       coordination with the Regional Security Officer.

Lack of clearly delineated responsibilities and procedures between the OSC-I and the
U.S. Mission caused the OSC-I and U.S. Mission operations and relationship to be
impaired (see Observation 1).

Required Training
                           Another obstacle to integration was that OSC-I personnel
   OSC-I personnel         were not adequately trained. DoD Instruction 5132.13,
   lacked necessary        “Staffing of Security Cooperation Organizations (SCOs) and
  training to provide      the Selection and Training of Security Cooperation
     foundational          Personnel,” states that assigned personnel shall receive
   knowledge of the        military specialty training determined appropriate by the
    complexities of        furnishing Military Service, and language, management, and
 Security Cooperation      other specific training as required by the Joint Table of
                           Distribution (JTD)/Joint Manpower Process (JMP) and the
personnel requisition.

It also states SCO personnel assigned security cooperation/assistance program
management functions will attend the Security Cooperation Management–Overseas
(SCM-O) course at the Defense Institute for Security Assistance Management (DISAM).
Attendance at DISAM is mandatory, unless the course has been completed satisfactorily
within the previous five years.

The situation in Iraq was recognized as unique and the OSC-I was required to deal with a
number of operating challenges. DoD could have done more to support the efforts of the
OSC-I by ensuring that more personnel were trained as required by DoD standards. The
President’s announcement to withdraw from Iraq by the end of 2011 occurred in early
2009, therefore DoD had a significant amount of time to ensure personnel assigned to the


                                            35
OSC-I were trained as required by the time that it transitioned to CoM authority.
Notwithstanding the online and mobile training teams that DoD did provide to the OSC-I,
the magnitude of deviation from required training standards was notable and could have
been avoided.

As of February 2013, the OSC-I reported that only 66 of 193 personnel reported trained
had taken or received formal security cooperation training and only 38 had the required
DISAM resident overseas course training. Meeting mandatory training requirements
more fully would have provided the fundamentals for those OSC-I staff to effectively
contribute to SCO operation and management. This was particularly important to
differentiating between customary security cooperation activities and authorities and the
special case that existed in Iraq.

The lack of proper training for the USF-I personnel that were assigned to the OSC-I as
the transition to post-contingency occurred also contributed to a lack of OSC-I personnel
understanding of and ability to execute security cooperation management and
coordination under CoM and DOS authority. Moreover, the unique responsibilities
delegated to the OSC-I by the DoD-DOS agreement for DoD and the OSC-I to provide
resource support to the U.S. Mission may have led to further confusion as to the
relationship between OSC-I and the U.S. Mission. This also may have impacted
integration of the OSC-I into the U.S. Mission, causing integration efforts to be impeded.

Conclusion
By November 2012, over a year after being declared fully operational capable, the OSC-I
was not fully integrated into the U.S. Mission and had separate facilities, security
requirements, and administrative and operating procedures for day-to-day activities.
DOS and DoD signed an MOA to ensure adequate support for both the U.S. Mission and
OSC-I. Implementing that arrangement required significant direct OSC-I interaction with
DoD. Having to interact more with DoD could have detracted the OSC-I from
establishing closer relations with DOS and, although not intentionally, impeded
development of an OSC-I that was fully integrated into the embassy.

In addition, the OSC-I and other DoD and DOS organizations did not establish a
consensus or appropriate related guidance regarding the role and responsibilities of the
OSC-I for post-2011. The lack of a joint DoD and DOS review of security cooperation
activities to be taken by the OSC-I in support of U.S. policy goals undercut unity of
effort. Also, because DoD, DOS, and the U.S. Mission did not agree on these activities
or policy goals, OSC-I had to execute many day-to-day activities based on limited
guidance and without a common understanding of its security cooperation activities (see
Observation 1).

Lack of sufficiently trained and experienced OSC-I personnel inhibited establishing the
fundamentals necessary for effective security cooperation organization operations and
management under the authority of and within the integrated framework of the U.S.
Mission. This included establishment of standard interagency operating procedures
between the OSC-I and the U.S. Mission. Although physical integration was to occur by


                                            36
October 31, 2013, an experienced and fully trained security cooperation cadre would
have been more adept at improvising and implementing effective interim integration
measures.

Full integration by OSC-I into the U.S. Mission was necessary for effecting transition of
responsibilities for security at the DoD managed field sites and all support activities that
were in the process of transitioning from DoD to DOS. Integration needed to be based on
a common DoD and DOS understanding and acceptance of the scope of OSC-I security
cooperation activities in order to achieve unity of effort. Insufficient integration also
caused DoD to expend fiscal resources to accomplish those support and security
cooperation activities which were delegated by DoD to the OSC-I to perform, but which
DOS, the U.S. Mission, or other DoD elements may have been capable of performing.

Finally, integration without the support of a clearly defined set of security cooperation
goals and objectives to be implemented by OSC-I, together with policy objectives for
other key elements of the U.S. Mission, could impede effectively building a productive,
long-term strategic partnership with Iraq, with the attendant consequences.

Recommendations, Management Comments, and Our
Response
Added Recommendation
As a result of management comments and additional assessment efforts, we added a new
Recommendation 3.c. to the final report for the Director, Cost Assessment and Program
Evaluation (CAPE), directing that office to issue a resource management decision that
supports transitioning the Office of Security Cooperation–Iraq to a Joint Table of
Distribution personnel configuration.

Recommendation
3.a. Commander, U.S. Central Command, in coordination with:

        3.a.(1) Under Secretary of Defense for Policy and Director of the Joint Staff,
evaluate the Office of Security Cooperation–Iraq mission to validate personnel
requirements necessary for coordinating and managing security cooperation activities and
submit request for Joint Table of Distribution to the Joint Staff in order to permanently
assign personnel to the Office of Security Cooperation–Iraq.

Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director stated that the Joint Staff validated the
Office of Security Cooperation–Iraq Joint Table of Distribution requirements and the
Vice Chairman of the Joint Chiefs of Staff endorsed the gain of 46 billets to U.S. Central
Command’s Joint Table of Distribution for the Office of Security Cooperation–Iraq. He
also stated that U.S. Central Command continued to present the Office of the Secretary of



                                            37
Defense with manpower requirements for resource decisions through the Program Budget
Review and that, when the Office of the Secretary of Defense issued a resource
management decision to transition the Office of Security Cooperation–Iraq to the Joint
Table of Distribution, U.S. Central Command will add the billets to the Joint Table of
Distribution and Services will add them to their documents and begin assigning
permanent military/civilian personnel.

Joint Staff. In a consolidated Joint Staff response, the Deputy Director, Joint
Education and Doctrine, Joint Staff J-7 stated Joint Staff J-1 agreed and that J-1
continued to support U.S. Central Command’s efforts to transition the Office of Security
Cooperation–Iraq to a permanent manning solution supported by a Joint Table of
Distribution.

Defense Security Cooperation Agency. Although not required to comment, in
a consolidated Joint Staff response, the Deputy Director, Joint Education and Doctrine,
Joint Staff J-7, stated that the Defense Security Cooperation Agency agreed and that, in
coordination with the Under Secretary of Defense for Policy and U.S. Central Command,
it had reviewed and validated personnel requirements to establish and support 46 security
assistance positions at the Office of Security Cooperation–Iraq.

Our Response
U.S. Central Command comments were responsive. We commend U.S. Central
Command efforts to establish a Joint Table of Distribution for the Office of Security
Cooperation–Iraq, which was important to providing stability and to establishing a
baseline of personnel and activities to support U.S. national security objectives in Iraq.
While providing 46 Joint Table of Distribution personnel to support security assistance
programs that Department of Defense administered on behalf of Department of State,
there was also an expected requirement for Joint Table of Distribution personnel to
manage and coordinate broader security cooperation program activity as well. No further
U.S. Central Command response is required.

In response to U.S. Central Command comments and to address that broader security
cooperation personnel requirement, we acknowledged that the Office of the Secretary of
Defense must issue a resource management decision and, therefore, added a new
Recommendation 3.c. directed to the Director, Cost Assessment and Program Evaluation.

Joint Staff comments were responsive. No further Joint Staff response is required.

Recommendation
3.a. Commander, U.S. Central Command, in coordination with:

       3.a.(2) Director, Defense Security Cooperation Agency, and Chief, Office of
Security Cooperation–Iraq, expedite obtaining the required training for all Office of
Security Cooperation–Iraq personnel, as required by Department of Defense Directives
and Instructions.



                                           38
Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director agreed with the recommendation and
stated that Security Cooperation Management training for personnel assigned to Security
Cooperation Organizations was a high priority for U.S. Central Command. He also stated
that the Services ensured incoming Office of Security Cooperation–Iraq personnel orders
reflected necessary training, such as courses offered at the Defense Institute for Security
Assistance Management. U.S. Central Command CCJ5-SC stated they will coordinate
with the Office of Security Cooperation–Iraq, Defense Security Cooperation Agency, and
the Defense Institute for Security Assistance Management to maximize the number of
personnel that attend Defense Institute for Security Assistance Management courses
before they arrived in Baghdad. They further stated that personnel who do not receive
formal Security Cooperation Management training prior to reporting to the Office of
Security Cooperation–Iraq were required to attend a course offered by that institute’s
mobile training team or utilize the institute’s online training courses. CCJ5-SC also
stated that, when billets are added to the Joint Table of Distribution, each position will
reflect the required training requirements and that U.S. Central Command CCJ1 will state
those requirements on its requests to fill the positions for the Services, in accordance with
current directives and policies.

Defense Security Cooperation Agency. In a consolidated Joint Staff response,
the Deputy Director, Joint Education and Doctrine, Joint Staff J-7 stated that the Defense
Security Cooperation Agency agreed and that that agency had been coordinating with the
Defense Institute for Security Assistance Management Commandant to expedite required
training for incoming Office of Security Cooperation–Iraq personnel. They also stated
that according to Defense Institute for Security Assistance Management Course rosters
for the FY 2013 Overseas Course sessions, to date a total of 56 students were Office of
Security Cooperation bound. Additionally, the Defense Institute for Security
Cooperation Management sent a mobile training team to the Office of Security
Cooperation–Iraq in March and September 2012 to conduct training for U.S. personnel
only and that 102 personnel received training during those events. Even though the
Defense Institute for Security Assistance Management did not know how many of those
trained were still with the Office of Security Cooperation–Iraq, they stated that they were
planning to send another mobile training team to Iraq in September 2013 to conduct
additional training sessions for U.S. personnel.

Our Response
U.S. Central Command comments were responsive. We commend U.S. Central
Command for its diligent monitoring of mandated training requirements in a very
dynamic operating environment, taking actions to expedite training for Office of Security
Cooperation–Iraq personnel, and utilizing mobile training teams to increase the training
opportunity for personnel assigned to the Office of Security Cooperation–Iraq.

We request U.S. Central Command provide information regarding whether all assigned
security assistance and security cooperation personnel have received required training, to


                                             39
include shortfalls of personnel not trained. We ask that U.S. Central Command
coordinate with Defense Security Cooperation Agency regarding completion of
in-country training scheduled for September 2013 to determine numbers of personnel
trained and the type training provided (security cooperation or security assistance or
both).

Recommendation
3.a. Commander, U.S. Central Command, in coordination with:

        3.a.(3) Chief, Office of Security Cooperation–Iraq, establish a plan for
transitioning responsibility for conducting security cooperation activities in Iraq,
including the training and advisory activities referred to in the Foreign Assistance Act of
1961, as amended, to U.S. Central Command and other elements for execution.

Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director agreed and stated that there was
currently deliberative interagency coordination to better define the longer-term U.S.
strategy and inherent mission requirements. He also stated that the U.S. Mission in Iraq
is on a glide path to assume a normalized configuration similar to other country teams
and that Office of Security Cooperation–Iraq personnel were to completely transition to
the U.S. Embassy compound by September 30, 2013, and assume a structure similar to
other regional security cooperation offices.

Joint Staff. Although not required to comment, in a consolidated Joint Staff response,
the Deputy Director, Joint Education and Doctrine, Joint Staff J-7, stated that Joint Staff
J-5 agreed and that J-5 coordination with the Under Secretary of Defense for Policy and
U.S. Central Command had resulted in the “Report on the Activities of the Office of
Security Cooperation–Iraq” and the U.S. Mission to Iraq “FY 2015 Mission Resource
Request.” Joint Staff provided copies of those documents in its response.

Our Response
U.S. Central Command comments were partially responsive. Although U.S. Central
Command agreed, comments did not sufficiently indicate the actions it had taken or
planned to take to fully implement this recommendation.

While physical location may facilitate integration, it does not necessarily constitute
complete integration by activity, membership, or coordination into the U.S. Mission in
Iraq. The “Report on the Activities of the Office of Security Cooperation” provided by
the Joint Staff was required by the National Defense Authorization Act of FY 2013 and
outlined a plan to physically move Office of Security Cooperation–Iraq personnel from
the Embassy Military Attaché and Security Assistance Annex (former Forward Operating
Base Union III) to the Baghdad Embassy Complex. That report also included some
details for transitioning responsibility for conducting security cooperation activities in


                                             40
Iraq to U.S. Central Command by the end of FY 2014. Recognizing the difference
between security cooperation and security assistance, it was understood that certain
security assistance activities were not only conducted by but also wholly managed by the
Department of State, while a number of security assistance programs were managed and
conducted by Department of Defense in support of Department of State strategic
objectives.

Full integration of the Office of Security Cooperation–Iraq was reported to be
accomplished by the end of FY 2014, within a U.S. Mission in Iraq that would “assume a
normalized mission similar to other country teams.” Inconsistency existed in the dates to
achieve full integration of activities that include all security cooperation programs,
projects, and activities and security assistance programs managed and conducted by the
Department of Defense.

We request that U. S. Central Command provide information when complete integration
of the Office of Security Cooperation–Iraq has been achieved and when “normalization”
has been achieved.

Recommendation
3.b. Chief, Office of Security Cooperation–Iraq, in coordination with the U.S. Chief of
Mission in Iraq and Commander, U.S. Central Command, accelerate establishing
requirements necessary for consolidating the Office of Security Cooperation–Iraq
activities within the U.S. Mission Iraq, including development and publishing of standard
operating procedures for all critical activities to facilitate full integration in minimum
time.

Management Comments
Office of Security Cooperation–Iraq. In a consolidated response for the
Commander, U.S. Central Command, the command Inspector General Executive Director
stated that the Office of Security Cooperation–Iraq agreed and provided information
regarding the Tikrit site closure and transition back to the government of Iraq. The
response further stated that they were on track to complete site transition of Taji and
Besmaya by September 30, 2013, and that they had transitioned 90 percent of Embassy
Military Attaché and Security Assistance Annex office functions to the Baghdad
Embassy Compound with a September 1, 2013 target to have functions and personnel
transitioned. They also stated that security functions and responsibilities formalized in a
security memorandum of agreement between the Office of Security Cooperation–Iraq and
the U.S. Embassy in Baghdad were to take effect August 1, 2013. In addition, the Office
of Security Cooperation–Iraq continues to formalize standard operating procedures
between the Office of Security Cooperation–Iraq and the U.S. Embassy in Baghdad.

Joint Staff. Although not required to respond, in a consolidated Joint Staff response,
the Deputy Director, Joint Education and Doctrine, Joint Staff J-7, stated that Joint Staff
J-5 agreed and that J-5 coordinated with U.S. Central Command to provide information
that resulted in the “Report on the Activities of the Office of Security Cooperation–Iraq.”



                                            41
Markings on that document, which Joint Staff included in its response, stated it was
submitted pursuant to Public Law 112-239, the National Defense Authorization Act for
FY 2013. That report showed the transition plan for Office of Security Cooperation–Iraq
integration into the U.S. Mission in Iraq, with a projected completion date for physical
integration of September 30, 2013. Further, the response stated that Joint Staff J-5
continued to communicate sufficient details about Office of Security Cooperation–Iraq
capabilities, activities, and objectives to U.S. Country Team officials to enable their
support, guidance, and oversight.

Our Response
The Office of Security Cooperation–Iraq comments were partially responsive. While
agreeing and stating that transition of sites and personnel was to be complete by
September 1, 2013, the Office of Security Cooperation–Iraq also stated that they
continued to formalize standard operating procedures between the Office of Security
Cooperation–Iraq and the U.S. Embassy in Baghdad.

We acknowledge the enormous effort by the Office of Security Cooperation–Iraq to
transition the outlying sites and physically integrate its personnel into the Baghdad
Embassy Complex while simultaneously assessing and restructuring the Office of
Security Cooperation–Iraq organization.

We request the Office of Security Cooperation–Iraq provide additional specifics
regarding the proposed list of standard operating procedures they plan to develop to
govern their activities as a fully integrated office in the U.S. Mission Iraq, as well as a
timeline indicating when those procedures will be completed and issued.

Recommendation (Added)
U.S. Central Command comments stated that when the Office of Secretary of Defense
issued a resource management decision to transition the Office of Security Cooperation–
Iraq to a Joint Table of Distribution, it will be able to add the billets to its Joint Table of
Distribution and Services will add those requirements to their documents and begin
assigning permanent military/civilian personnel.

We therefore added a new Recommendation 3.c. for implementation by the Office of the
Secretary of Defense Cost Assessment and Program Evaluation.

3.c. Director, Cost Assessment and Program Evaluation, in coordination with the Under
Secretary of Defense Comptroller, issue a resource management decision to support
transition of the Office of Security Cooperation–Iraq to a Joint Table of Distribution that
specifies personnel to manage, coordinate, and conduct the full range of security
cooperation activities which encompasses those security assistance programs
administered by Department of Defense.




                                              42
Management Comments Required
We request that the Director, Cost Assessment and Program Evaluation provide
comments on the final report.




                                         43
This Page Intentionally Left Blank




               44
Observation 4. Department of Defense
Transition of Sites in Iraq
The OSC-I did not have the specialized personnel and equipment resources required to
manage the closing down and transition to government of Iraq (GoI) control those field
sites for which OSC-I has been responsible. DoD also did not have a comprehensive plan
for enabling the transition of these sites.

The necessary resources were not available because the OSC-I was designed and staffed
to perform security cooperation and security assistance activities, not to transition DoD
managed sites to the GoI. Further, DoD had not yet committed all of the personnel and
equipment resources needed to properly transition those sites to the GoI by the end of
2013.

Transitioning DoD managed sites without having the required specialized skills and
capabilities available increased the risk of:

   •   not meeting established timelines for transitioning field sites, and
   •   compromising sensitive equipment items protected by U.S. law.

Further, diverting OSC-I personnel from their primary security assistance and security
cooperation mission duties to perform site transition tasks would impede accomplishment
of those primary responsibilities.

Applicable Criteria
DoD Directive 5132.03, “DoD Policy and Responsibilities Relating to Security
Cooperation,” October 24, 2008.

“National Defense Authorization Act for Fiscal Year 2013,” Section 1211. P.L. 112-239,
January 2, 2013.

Discussion
Background
By late 2010, the Department of State had not secured full congressional funding for all
post-contingency operation activities in Iraq, and DoD agreed to take responsibility for
funding and managing 6 of the 10 sites throughout Iraq. Since January 1, 2012, OSC-I
had been authorized and funded to operate and maintain those six sites. The recent
NDAA for FY 2013 included $508 million that funded the OSC-I efforts in Iraq and the
security cooperation activities that it conducted, as well as operations at the various DoD
managed field sites.

Complexity of Transitioning Sites
During 2012, DOS directed significant reductions of the U.S. Mission personnel and
logistics which included the outlying sites. At the same time, the U.S. Mission made


                                            45
plans to accelerate the consolidation of its diplomatic and the DoD managed sites. In
another action not directly related to DOS reductions, USCENTCOM also ordered OSC-I
to plan for transitioning the outlying site of Kirkuk back to the GoI. The Kirkuk
transition occurred over the course of several months and was completed in September
2012.

OSC-I transitioned Kirkuk before incurring the personnel reductions imposed by DOS
and, therefore, it had more substantial resources to support the transitioning of that field
site. U.S. Army further augmented that site transition effort with special logistics teams.
Those special teams provided critical assistance in the performance of the required
material inventory, packaging, and movement of USG equipment. Kirkuk also had a
readily accessible airstrip capable of handling C-17 cargo aircraft, which was critical to
ensuring a safe and responsible transition and retrograde of sensitive USG equipment.

                             Transitioning the remaining five DoD managed sites of Tikrit,
       Transitioning the
                             Taji, Embassy Military Attaché and Security Assistance
     remaining five DoD
                             Annex (EMASAA, across the street from the main embassy
     managed sites would
                             compound in Baghdad), Umm Qasr, and Besmaya would be
     be resource intensive
                             more resource intensive than Kirkuk. Coordinating the
                             transition of those sites, especially by the end of 2013 as the
then established timelines projected, would require additional personnel with special
skills to conduct necessary logistics and other supporting activities, to include:
transportation, multi-modal loadmasters, demilitarization supply experts, property
accountability clerks, and intelligence personnel. However, DoD was generally reluctant
to send its personnel into Iraq because of a lack of formal privileges and immunities, the
DoD security concerns for its personnel, and Iraqi government sensitivities over the
visibility of any increased U.S. military presence, other than the OSC-I.38 It was
therefore unclear whether these impediments would preclude deploying sufficient
resources to complete the required tasks within the established timelines.

There were substantial amounts of USG material remaining at DoD managed field sites
that must either be removed or disposed. As an example, members of the DoD IG team
observed a large number of up-armored sport utility vehicles at Taji that had to be either
returned to the U.S., or demilitarized and disposed of in-country. Existing U.S.
technology export laws prohibited those articles and material from being transferred to
the government of Iraq. On site disposal was an especially complicated task that required
special authorization. Based on experience gained in transitioning Kirkuk, ground
transportation in Iraq was a particularly limiting factor due to it being inconsistent and
unreliable, which caused several delays in critical movements.

Another site transition factor that OSC-I officials expressed was considering the
requirements for establishing follow-on FMS cases at the sites after the transition
occurred if that was required. To effectively enable FMS case activity in those instances
where it was required, site transitions had to be accomplished in a manner that accounted


38
     See Privileges and Immunities, Appendix C.


                                                  46
for GoI and FMS contractor requirements. This included effectively transitioning any
available and necessary equipment to responsible parties, as well as ensuring required
infrastructure elements at specific locations transitioned intact. Preserving and
transitioning intact communications infrastructure was one such concern that OSC-I
officials mentioned.

Site Transition Mission Analysis and Follow Through
Leveraging lessons learned from Kirkuk, OSC-I determined that site transition was a
difficult undertaking beyond its capability to execute with existing resources. Given the
Kirkuk experience it was recognized that transportation was a potentially limiting factor
that needed to be carefully considered. The lessons learned review conducted for the
Kirkuk transition recommended that future closures retain flexible options and plan for
delays.

Based on its subsequent analysis, OSC-I formally requested additional resources from
USCENTCOM. After validating that request for assistance, which included logistics
teams and other necessary resources, USCENTCOM forwarded it to higher DoD
echelons. There were indications that some site transition activity had occurred in
response to that request. However, as of April 2013, DoD had not provided evidence of a
comprehensive plan for transitioning the sites that it managed in Iraq back to the GoI.

In November 2012, OSC-I planners expected many activities at DoD managed sites to
convert to follow-on, contractor based security assistance FMS cases. While several
options for establishing FMS case activities were being explored at that time, site
transition criteria remained unclear. As of April 2013, and lacking evidence of a
comprehensive plan for transiting DoD-managed sites, it was unclear whether DoD had
effectively considered the requirements or developed criteria for establishing follow-on
FMS case activities at those site locations if establishing such a capability was required.

Conclusion
At the time the DoD IG team visited Iraq in November 2012, DoD primarily relied on
OSC-I, a security cooperation organization under CoM authority, to transition the field
sites that it managed. However, the OSC-I did not have the resources required to
accomplish this mission on its own.

By April 2013, there were indications that some site transition activity had occurred,
although it was unclear whether DoD had a comprehensive plan for transitioning the sites
that it managed in Iraq back to the GoI. Effective transition was especially important for
establishing follow-on FMS case activity when and where that was required.

Not providing OSC-I the required personnel and resources would greatly increase the risk
that sensitive items protected by U.S. law could be compromised. It also increased the
potential that established timelines for consolidating USG assets and personnel would not
be met, which could impede the standup of follow-on, contractor-based FMS case
activities at those locations after the transition to GoI control occurred. Further, diverting
OSC-I personnel from their primary duties to perform site transition tasks increased the


                                             47
risk that achieving important security assistance and security cooperation efforts in Iraq
would be delayed with possible negative consequences.

Recommendations, Management Comments, and Our
Response
Recommendation
4.a. Commander, U.S. Central Command, in coordination with Chief, Office of Security
Cooperation–Iraq, identify the requirements for fully transitioning Department of
Defense designated sites in Iraq back to the government of Iraq, to include adjusting the
transition timelines if necessary.

Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director agreed and further stated that it had
issued a fragmentary order (FRAGO) regarding site transition in Iraq that provided the
necessary direction, authority, money, and people to responsibly transition those sites
back to the government of Iraq. That response provided additional information regarding
the Office of Security Cooperation–Iraq request for additional resources, U.S. Central
Command coordination and response to that request, and a copy of the referenced
fragmentary order.

Joint Staff. Although not required to comment, in a consolidated Joint Staff response
the Deputy Director, Joint Education and Doctrine, Joint Staff J-7, stated that Joint Staff
J-4 agreed and that J-4 will continue to work with Department of Defense elements and
U.S. Central Command to transition the sites in Iraq. The response stated that
coordination with the Under Secretary of Defense for Policy and U.S. Central Command
resulted in the “Report on the Activities of the Office of Security Cooperation–Iraq,”
which outlined the transition of sites in Iraq. Joint Staff included that report in its
response.

Our Response
U.S. Central Command comments were fully responsive. We commend its efforts to
identify and secure resources, as well as implement a whole-of-government approach to
addressing challenges of transitioning the sites back to the government of Iraq. No
further response is required.

Recommendation
4.b. Under Secretary of Defense for Policy, in coordination with Under Secretary of
Defense for Acquisition, Technology, and Logistics and Chairman of the Joint Chiefs of
Staff, take action to ensure necessary resources are available and allocated to U.S. Central
Command in order to effectively transfer Department of Defense designated sites in Iraq
back to the government of Iraq.


                                            48
Management Comments
Under Secretary of Defense for Policy. In responding for the Under Secretary
of Defense for Policy, the Principal Director for Middle East Policy agreed but did not
further specify the action they had taken or planned to take to implement the
recommendation.
Joint Staff. In a consolidated Joint Staff response the Deputy Director, Joint
Education and Doctrine, Joint Staff J-7, stated that Joint Staff J-4 agreed and that J-4 will
continue to work with Department of Defense elements and U.S. Central Command to
transition the Department of Defense designated sites in Iraq. The response also stated
that coordination with the Under Secretary of Defense for Policy and U.S. Central
Command resulted in the “Report on the Activities of the Office of Security
Cooperation–Iraq,” which outlined the transition of sites in Iraq. Joint Staff included that
report and other amplifying information in its response.

Our Response
The Under Secretary of Defense for Policy comments were partially responsive.
Although agreeing, comments did not specify the actions they had taken or planned to
take to ensure necessary resources were available and allocated to U.S. Central Command
in order to effectively transfer Department of Defense designated sites in Iraq back to the
government of Iraq. However, Joint Staff provided some of that additional information
in its response and U.S. Central Command comments to Recommendation 4.a. provided
the remaining necessary information. Therefore, no further Under Secretary of Defense
for Policy response is required.

Joint Staff comments were fully responsive. We commend the Joint Staff for the
completeness of its response and substantiating documentation. No further Joint Staff
response is required.




                                             49
This Page Intentionally Left Blank




               50
Observation 5. Sufficiency of Joint Doctrine
A consolidated source of DoD joint doctrine did not exist to support the post-contingency
transition of responsibility between DoD and DOS in Iraq, especially regarding the
conduct of security cooperation activities.

DoD had not recognized the need for this doctrine before the transition of its lead
responsibility from DoD to DOS in Iraq beginning in 2012. Joint doctrine at that time
identified security cooperation planning and execution, but did not contain sufficient
details to support post-contingency transition. Additionally, USCENTCOM had not
systematically collected, analyzed, and integrated security cooperation or transition
related lessons learned into the Joint Doctrine Development process as DoD directives
require.

The lack of guidance regarding post-contingency transition of responsibilities between
DoD and DOS impeded interagency efforts to fully integrate OSC-I capability into and
achieve optimal synergy with the U.S. Mission in Iraq.

Applicable Criteria
DoD Directive 5132.03, “DoD Policy and Responsibilities Relating to Security
Cooperation,” October 24, 2008.

CJCS Instruction 3150.25E, “Joint Lessons Learned Program,” April 20, 2012.

CJCS Instruction 5120.02C, “Joint Doctrine Development System,” January 13, 2012.

Joint Publication 3-0, “Joint Operations,” August 11, 2011.

Joint Publication 3-07, “Stability Operations,” September 29, 2011.

Joint Publication 3-08, “Interorganizational Coordination During Joint Operations,” June
24, 2011.

Joint Publication 5.0, “Joint Operation Planning,” August 11, 2011.

Discussion
Importance of Joint Doctrine
Joint doctrine is important to training, educating, and developing U.S. military forces. It
consists of fundamental principles that guide the employment of U.S. military forces in
order to enhance the operational effectiveness of those forces. While not policy or
strategy, joint doctrine is inherently linked to and informed by U.S. policy and serves to
make policy and strategy effective in the application of U.S. military power. It represents
what is taught, believed, and advocated as being right (that is, what works best). It
standardizes terminology, training, relationships, responsibilities and processes among all
U.S. forces to free joint force commanders and their staffs to focus efforts on solving the


                                            51
strategic, operational, and tactical problems confronting them. These doctrinal shaping
functions are especially important to achieving successful future activities.

Disparate Guidance
                                 Current guidance governing security cooperation
    Current guidance             programs and activities is currently managed and located
    governing security           within several organizations of the DoD. DoD Directives
 cooperation is located in       and Instructions provide policy and national strategic
  several organizations          direction provides for guidance for security cooperation
       within DoD                programs and activities but lack a common doctrinal
                                 approach to planning, assessing, and transitioning security
cooperation, as well as common program, project, and activity descriptions. The Defense
Security Cooperation Agency Manual 5105.38-M, “Security Assistance Management
Manual (SAMM),” for instance, references security cooperation, but primarily describes
security assistance and its procedural elements. Other guidance provides specific details
regarding Security Cooperation Organization personnel identification, assignment,
training, tour length, and responsibilities.

Existing joint planning doctrine does not effectively address transitioning between phases
of a contingency operation or transitioning from a contingency to a post-contingency
situation, especially one as unique as Iraq. For example, Joint Publication 5-0, “Joint
Operation Planning,” provides broad overarching guidance on the joint planning process
but lacks a discussion on planning and assessing security and cooperation programs and
activities in theater and country-level plans or whether or not to transition all, some, or
none of them as the DoD-led contingency operation transitions to a DOS-led, Phase 0
situation. Joint Publication 3-0, “Doctrine for Joint Operations,” establishes joint
doctrine for directing, planning, and executing joint operations. That publication series
primarily deals with conducting various types of joint operations. It also broadly
discusses interorganizational coordination in unified action but provides little detail in
terms of transitioning security cooperation activities from DoD to DOS.

Collectively, joint publications do not comprehensively encompass or address doctrine
for transitioning to a post-contingency situation. They also lack sufficient guidance for
effectively planning and executing security cooperation. For example, JP 3-07, “Stability
Operations,” addresses transitions, but it does not cover security cooperation or details for
transitioning from a contingency to a post-contingency situation.

Transition Gaps
Joint doctrine does not effectively address and support DoD
transitioning ongoing activities to DOS in a post-                  Joint doctrine does
contingency or an uncertain environment. Joint doctrine               not effectively
has a six phase (Phase 0 through Phase V) contingency              address and support
model, depicted in Figure 6, which helps explain this               DoD transitioning
doctrinal gap. While spanning normal actions and                   from contingency to
activities, the model recognizes that all contingencies do not       post-contingency
necessarily cycle through all of the six phases.


                                             52
Joint doctrine describes the joint planning process for contingency operations but does
not sufficiently address the transition between DoD and DOS that occurs following a
contingency. As an earlier DoD Inspector General report indicated, JP 5-0, “Joint
Operation Planning,” mainly detailed those actions required to rapidly build up the
military and transition it to a higher force employment status in response to an unfolding
crisis, as would be experienced in transitioning from Phase 0 through Phase III for
example. The transition from Phase III to Phase V is also explained, though to a lesser
degree. Discussion of requirements to effectively transition from Phase V, Enable Civil
Authority, back to Phase 0, Shape, as OSC-I experienced in Iraq, however, does not exist.

                         Figure 6. Contingency Phasing Model




               Source: JP 5-0.

During the time USF-I conducted drawdown and withdrawal activities, the lack of
security cooperation transition guidance from Phase V to 0, contributed to post
contingency issues. For instance, when higher echelons did not provide sufficient details
regarding organizational requirements, functions, tasks, and activities, OSC-I had to
organize and conduct activities it deemed necessary to accomplish its mission, as it was
able to define it, based on previous existing USCENTCOM theater and country-specific
planning guidance and identified in-country needs. This had to be accomplished in what
one senior OSC-I official stated was an “authority-doctrine mismatch.”

Another guidance shortcoming concerned a clear and sufficient understanding of the
preparation and planning required for security cooperation. This gap contributed to
differing views within DoD and between DoD and DOS regarding specific security
cooperation roles and responsibilities. Interviews with OSC-I and USCENTCOM
officials indicated a lack of consensus regarding the transition elements necessary for
implementing the security cooperation mission. One senior OSC-I official provided a
chart (see Introduction, Figure 3) illustrating some of the key issues OSC-I identified as


                                            53
requiring additional transition guidance. These included aspects such as authorities,
funding, structure, and lines of communication. Lack of a unified position on these
issues within DoD contributed to difficulties in agreeing on the OSC-I mission and
resource requirements within the U.S. Mission.

Security cooperation planning also lacked a sufficiently forward looking planning
horizon. In the current Joint Publication 3-0 series, all references to planning and
executing security cooperation cite the Guidance for Employment of the Force (GEF),
which generally follows the 2 year operational and contingency planning cycle.
However, the planning of security cooperation Programs, Projects, and Activities (PPAs)
necessitates a longer planning horizon in order to effectively compete for funding within
the President’s annual budgeting process by aligning requirements for implementing the
plan with programmatic means.

To do that, the generic DoD planning horizon for security cooperation must effectively
align the requirements identified in the theater and country-specific planning with
programmatic means reflected in the Future Years Defense Program (FYDP) cycle. This
extended planning horizon normally follows a 6-year cycle and would assist in
synchronizing the DOS resource planning and programming cycle with the DoD security
cooperation activity requirements, programs, and implementing resources.

The situation in Iraq was a good example of the importance of establishing a longer
security cooperation planning horizon, particularly during complex interagency transition
efforts. At the time of this assessment, DoD continued to primarily utilize the special
congressional training authority in the NDAA for FY 2013 and overseas contingency
operations funding in Iraq through FY 2013. After FY 2013, however, USCENTCOM
security cooperation planning needed to effectively link its intended future activities to
the established security cooperation programs and funding sources necessary to achieve
longer-term objectives in Iraq. It was not evident that this had been accomplished and,
therefore, uncertain whether sufficient programmatic security cooperation resources
would be made available to ensure those objectives would be achieved.

Importance of Lessons Learned
Lessons learned are important to developing and refining joint doctrine. Besides
benefiting current operations, identifying doctrinal gaps helps improve future
performance. The OSC-I established a relationship with the Center for Army Lessons
Learned (CALL) to collect and analyze lessons learned at their level. The CALL used
the results of their analysis to publish and update a formal handbook entitled “Senior
Leader’s Guide to Transition Planning.” USCENTCOM was aware of those lessons
learned efforts but not directly involved in that process. Otherwise, USCENTCOM did
not systematically collect, analyze, and submit security cooperation or Iraq transition-
related lessons learned, as required by CJCS instructions. For instance, USCENTCOM
interviewees stated that lessons from across the various USCENTCOM headquarter
sections were not being collected, analyzed, and consolidated for submission into the
Joint Doctrine Development Process. It was unclear why this had not occurred. Joint



                                            54
Staff doctrine officials confirmed they had not received security cooperation or Iraq
transition related lessons learned from USCENTCOM.

Nevertheless, Joint Staff doctrine officials were continuing
with the joint doctrine development process based on                  Transitioning from
security cooperation-related lessons learned inputs from the        stability operations to
Joint Doctrine Development Community (JDDC), which                   security cooperation
consists of representatives from combatant commands,                   activities require
Services, and Combat Support Agencies. As of February               consolidated doctrine
2013, those sources mainly consisted of organizational
representatives that had attended the November 2012 50th Joint Doctrine Planners
Conference. That forum, which identified a gap in doctrine involving security
cooperation, unanimously recommended developing a new JP 3-XX “Joint Support to
Security Cooperation.” However, those joint doctrine officials that we interviewed also
indicated that inputs received up until that point were insufficient to support developing
new or updating existing doctrine. 39

Conclusion
The lack of consolidated joint doctrine regarding security cooperation and the post-
contingency transition of responsibility between DoD and DOS inhibited synergy
between other USG and DoD efforts in Iraq. Though joint doctrine mentioned security
cooperation in numerous instances, it lacked important details and was therefore
incomplete. The USCENTCOM had not contributed to establishing sufficient doctrinal
input since it had not ensured relevant lessons learned from the Iraq transition were
systematically collected, analyzed, and sponsored into the Joint Doctrine Development
process, as required by CJCS Instruction 5120.02C, “Joint Doctrine Development
System.”

While these shortfalls contributed to a lack of understanding on how to properly integrate
OSC-I capability to achieve optimal synergy with the U.S. Mission in Iraq, developing
improved joint doctrine also has longer-term importance to the U.S. military. Updated
security cooperation and related transition doctrine and guidance are required to inform
and shape U.S. force development efforts, such as training and leader development, as
well as generating force requirements and capabilities for future post-contingency
operational transitions.

Transitioning from stability operations to security cooperation activities will be especially
important to future transitions as it was and is in Iraq. A single source DoD publication
in this regard would assist in consolidating important information that is now dispersed
throughout numerous publications. It would also assist in clarifying relationships
between various interagency partners and programs, which could be of significant benefit
to the upcoming transition and post-contingency security cooperation efforts in
Afghanistan.


39
     See Joint Doctrine Development, Appendix C.


                                                   55
Recommendations, Management Comments, and Our
Response
Recommendation
5.a. Commander, U.S. Central Command, in coordination with Under Secretary of
Defense for Policy and Director, Joint Force Development, Joint Staff J7:

        5.a.(1) initiate a recommendation for fast track development of doctrine that
covers transition of security cooperation and other responsibilities between the
Department of Defense and Department of State in the post-contingency environment as
has been occurring in Iraq beginning in 2011 and will need to be applied in Afghanistan
post-2014.

Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director agreed and further stated that, given
appropriate lead times, the command could support the joint doctrine development
process. The response also stated any joint doctrine developed would be too late to
inform transition planning for Afghanistan because those plans were scheduled to be
published in the first quarter of FY 2014–1 year out from execution, as lessons from Iraq
suggested was appropriate. The Executive Director also stated that concurrently
supporting joint doctrine development while planning for the Afghanistan transition
would unacceptably tax the command’s limited planning resources.

Joint Force Development, Joint Staff J-7. Responding for the Director, Joint
Force Development, Joint Staff J-7, the Deputy Director, Joint Education and Doctrine,
Joint Staff J-7, agreed with the recommendation and further stated that, in accordance
with Chairman of the Joint Chiefs of Staff Instruction 5120.02C, the Joint Staff,
combatant commands, Military Services, and the Under Secretary of Defense for Policy
were reviewing the J-7 directed Preliminary Coordination Program Directive for a new
joint publication. He additionally stated that J-7 continued to work with specialized
centers of excellence to incorporate lessons learned into that new joint publication, as
well as other applicable joint publications.

Our Response
U.S. Central Command comments were partially responsive. Although the command’s
Inspector General Executive Director agreed and stated the command could support joint
doctrine development, he did not specify the actions U.S. Central Command had taken or
planned to take to implement the recommendation. In addition, Recommendation 5.a.(1)
was not intended to solely address the actions leading up to a formal transition from
military- to civilian-led authority as a military contingency winds down. While that is a
consideration, its main intent is to address the transitional state and challenges that endure
after that major transition event occurs. Specifically, it is to ensure joint doctrine
effectively informs practitioners of the incremental transition of responsibilities that


                                             56
continues to occur between Department of Defense and Department of State until a more
normalized state and set of political/military relationships can be secured.

Using the 1 year advance planning timelines from Iraq cited by U.S. Central Command,
fast track development of joint doctrine was warranted and would be in time to address
post-2014 transition challenges in Afghanistan because that period was then projected to
extend to 2018 and beyond. Comments by U.S. Central Command to Recommendation
1.b. substantiated that it was projecting to continually update its theater- and Iraq-specific
security cooperation plans following the major transition from military- to civilian-led
authority in Iraq (see Appendix F). It was reasonable to expect that similar post-
contingency planning will be performed for Afghanistan after 2014.

Given this clarification, we request that U.S. Central Command reevaluate its comments
and provide a response to the final report that includes specific actions it has taken or
plans to take to implement this recommendation. In light of the competing demands on
limited planning resources, we encourage U.S. Central Command to seek external
support to fulfill its Chairman of the Joint Chiefs of Staff-directed joint doctrine
development responsibilities and suggest soliciting external support from such
organizations as the Joint Staff J-7 Joint Center for Operational Analysis.

Deputy Director, Joint Education and Doctrine, Joint Staff J-7, comments were fully
responsive. We commend the Joint Staff for the completeness of its response and
proactive approach to expedited development of joint security cooperation doctrine. No
further Joint Staff J-7 response is required.

Recommendation
5.a. Commander, U. S. Central Command, in coordination with Under Secretary of
Defense for Policy, and Director, Joint Force Development, Joint Staff J7:

        5.a.(2) systematically compile and formally submit joint lessons learned to ensure
observations and insights emerging from ongoing post-contingency transition activities
are captured and incorporated into joint doctrine.

Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director agreed but did not specify what actions
the command had taken or planned to take to implement this recommendation.

Joint Force Development, Joint Staff J-7. Responding for the Director, Joint
Force Development, Joint Staff J-7; the Deputy Director, Joint Education and Doctrine,
Joint Staff J-7, agreed and further stated that, in accordance with Chairman of the Joint
Chiefs of Staff Instruction 5120.02C, the Joint Staff, combatant commands, Military
Services, and the Under Secretary of Defense for Policy were reviewing the J-7 directed
Preliminary Coordination Program Directive for a new joint publication and that Joint
Staff J-7 continued to work with other specialized centers of excellence to incorporate


                                             57
lessons learned into that new joint publication, as well as other applicable joint
publications.

Our Response
U.S. Central Command comments were non responsive. The Inspector General
Executive Director did not state specific actions U.S. Central Command has taken or
plans to take to implement this recommendation.

We request U.S. Central Command provide comments to the final report that specify
what actions it has taken or plans to take to ensure observations and insights emerging
from ongoing post-contingency transition activities are effectively captured and
incorporated into joint doctrine in a timely manner. Besides planning and other activities
leading up to the transition from military- to civilian-led authority, this should
specifically address post-contingency planning and other activities that occur
immediately after the contingency period winds down and continues until a more
normalized state is achieved. It is particularly important that, besides lessons learned
from field organizations, lessons from across the combatant command headquarters be
systematically compiled, submitted, and incorporated into joint doctrine.

Joint Force Development, Joint Staff J-7, comments were fully responsive. We
commend the Joint Staff J-7 for the completeness of its response and proactive approach
to expedited development of joint security cooperation doctrine. No further Joint Staff
J-7 response is required.

Recommendation
5.a. Commander, U. S. Central Command, in coordination with Under Secretary of
Defense for Policy and Director, Joint Force Development, Joint Staff J7:

        5.a.(3) review and recommend changes to appropriate joint doctrine publications
to ensure they effectively reflect the doctrinal aspects of planning for and conducting
security cooperation and other transition activities in a post-contingency environment.

Management Comments
U.S. Central Command. Responding for the Commander, the U.S. Central
Command Inspector General Executive Director agreed but did not specify what actions
the command had taken or planned to take to implement this recommendation.

Joint Force Development, Joint Staff J-7. Responding for the Director, Joint
Force Development, Joint Staff J-7; the Deputy Director, Joint Education and Doctrine,
Joint Staff J-7 agreed. He further stated that, in accordance with Chairman of the Joint
Chiefs of Staff Instruction 5120.02C, the Joint Staff, combatant commands, Military
Services, and the Under Secretary of Defense for Policy were reviewing the J-7 directed
Preliminary Coordination Program Directive for a new joint publication and that J-7
continued to work with other specialized centers of excellence to incorporate lessons
learned into that new publication, as well as other applicable joint publications.


                                             58
Our Response
U.S. Central Command comments were non responsive. The Inspector General
Executive Director did not state specific action U.S. Central Command has taken or plans
to take to implement this recommendation.

We request U.S. Central Command provide comments to the final report specifying what
actions it has taken or plans to take to review and recommend changes to joint doctrine
publications to ensure they effectively reflect the doctrinal aspects of planning for and
conducting security cooperation and other transition activities in a post-contingency
environment. Besides the planning and other activities leading up to the transition from
military-to civilian-led authority, this should specifically address post-contingency
planning and other activities that occur immediately after the contingency period winds
down and continues until a more normalized state is achieved. The response should also
address how U.S. Central Command plans to systematically compile, submit, and ensure
lessons learned from across its headquarter elements are incorporated into joint doctrine.

Joint Force Development, Joint Staff J-7 comments were fully responsive. We commend
the Joint Staff J-7 for the completeness of its response and proactive approach to
expedited development of joint security cooperation doctrine. No further Joint Staff J-7
response is required.

Recommendation
5.b. Director, Joint Force Development, Joint Staff J-7, in accordance with Chairman of
the Joint Chiefs of Staff Instruction 5120.02C and in coordination with Under Secretary
of Defense for Policy and Commander, U.S. Central Command, review joint doctrine and
provide recommendations for consolidating emerging information from the situation in
Iraq as it relates to conducting security cooperation and transitioning responsibilities
between Department of Defense and other departments in complex, uncertain post-
contingency security environments.

Management Comments
Joint Force Development, Joint Staff J-7. Responding for the Director, Joint
Force Development, Joint Staff J-7; the Deputy Director, Joint Education and Doctrine,
Joint Staff J-7 agreed and further stated that, in accordance with Chairman of the Joint
Staff Instruction 5120.02C, a thorough review of applicable joint doctrine was conducted,
resulting in the development of JP 3-XX, Military Support to Security Cooperation. The
Deputy Director stated J-7 will incorporate the National Defense University Center for
Complex Operations “Security Transition Planning Doctrine Proposal” and the U.S.
Army Center for Army Lessons Learned “Senior Leader’s Guide to Transition Planning”
lessons learned into the new JP 3-XX. Moreover, the Deputy Director stated that lessons
learned from security cooperation and transitioning responsibilities will be infused in
applicable existing joint doctrine during programmed revision cycles.




                                            59
Our Response
Joint Staff J-7 comments were partially responsive. We commend the Joint Staff J-7 for
its proactive approach to expedited development of joint security cooperation doctrine.
However, the response did not indicate a timeframe for when JP 3-XX would be
completed or when lessons learned would be infused into existing joint doctrine. We
therefore request Joint Staff J-7 provide a copy of the referenced National Defense
University Center for Complex Operations document and, when completed, Joint
Publication 3-XX, as well as a schedule of the programmed revision cycles for Joint
Publications 3-0, 3-07, 3-08, and 5-0.




                                           60
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from August 2012 to June 2013 in accordance with the
standards published in the Quality Standards for Inspection and Evaluation. We planned
and performed the assessment to obtain sufficient and appropriate evidence to provide a
reasonable basis for our observations and conclusions based on our assessment
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our assessment objectives.

In the U.S., we met with personnel from the Defense Security Cooperation Agency; the
Office of the Under Secretary of Defense for Policy; the Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer; Joint Chiefs of Staff J5 and J7
Directorates; and U.S. Central Command. In Iraq, we visited Forward Operating Base
Union III (now the Embassy Military Attaché and Security Assistance Annex); the U.S.
Embassy in Baghdad; and Contingency Operating Sites Besmaya and Taji. At these
locations we observed current operations and we met with U.S. and Iraqi leaders and
managers at various levels, ranging from general officers, to staff officers, to senior
embassy personnel involved in and responsible for training, planning, and
implementation of security assistance and security cooperation transition activities in
Iraq.

We reviewed documents such as Federal laws and regulations, including the National
Defense Authorization Act, Chairman of the Joint Chiefs of Staff instructions, DoD
directives and instructions, and appropriate USCENTCOM plans and guidance applicable
to the assessment objectives. We also collected and reviewed supporting documentation.

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.

Use of Technical Assistance
We did not use Technical Assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.

ACSA                      Acquisition and Cross Servicing Agreement
AECA                      Arms Export Control Act
ARCENT                    U.S. Army Forces, U.S. Central Command
BEC                       Baghdad Embassy Complex
CALL                      Center for Army Lessons Learned
CCIF                      Combatant Commander Initiative Fund
CJCS                      Chairman of the Joint Chiefs of Staff
CoM                       Chief of Mission
CTFP                      Combating Terrorism Fellowship Program


                                             61
DSCA      Defense Security Cooperation Agency
DoD OIG   Department of Defense Office of Inspector General
DOS       Department of State
DOS OIG   Department of State Office of Inspector General
DCG A&T   USF-I Deputy Commanding General for Advising and Training
DCCEP     Developing Country Combined Exercise Program
DCS       Direct Commercial Sales
DISAM     Defense Institute for Security Assistance Management
DSCA      Defense Security Cooperation Agency
EMASAA    Embassy Military Attaché and Security Assistance Annex
EUM       End-use Monitoring
E-IMET    Extended-International Military and Education Training
FAA       Foreign Assistance Act
FMFP      Foreign Military Finance Program
FMS       Foreign Military Sales
FOAA      Foreign Operations and Appropriations Act
FOC       Full Operating Capability
FPD       Force Protection Detachment
FYDP      Future Years Defense Program
GCC       Geographic Combatant Command
GoI       Government of Iraq
IOC       Initial Operating Capability
IMET      International Military Education Training
ISF       Iraqi Security Forces
ISFF      Iraq Security Forces Fund
JCET      Joint Combined Exchange Training
JDDC      Joint Doctrine Development Community
JISE      Joint Intelligence Support Element
JOC       Joint Operations Center
JTD/JMP   Joint Table of Distribution/Joint Manpower Process
LOA       Letter of Offer and Acceptance
MAP       Military Assistance Programs
MILDEP    Military Department
MET       Mobile Education Team
MOA       Memorandum of Agreement
MoD       Ministry of Defense
MOU       Memorandum of Understanding
MRPAT     Mobile Redistribution Property Assistance Team
MTT       Mobile Training Team
NDAA      National Defense Authorization Act
NSC       National Security Council
ODA       Office of Defense Attaché
OIF       Operation Iraqi Freedom
OSC-I     Office of Security Cooperation–Iraq
OND       Operation New Dawn
OPORD     Operations Order



                          62
PPA         Programs, Projects, Activities
PME         Professional Military Education
RSI         Rationalization, Standardization, and Interoperability
RSO         Regional Security Officer
SA          Security Assistance
SAMM        Security Assistance Management Manual
SC          Security Cooperation
SCM-O       Security Cooperation Management–Overseas
SCO         Security Cooperation Organization
SDO/DATT    Senior Defense Official/Defense Attaché
SOP         Standard Operating Procedure
SSR         Security Sector Reform
TCA         Traditional Commander Activities
USAID       U.S. Agency for International Development
USCENTCOM   U.S. Central Command
U.S.C.      United States Code
USEMB-B     United States Embassy–Baghdad
USF-I       United States Forces–Iraq
USG         United States Government




                              63
This Page Intentionally Left Blank




               64
Appendix B. Summary of Prior Coverage
During the last three years, Congress, the Commission on Wartime Contracting in Iraq
and Afghanistan, the Government Accountability Office, the Department of Defense
Inspector General, and the Department of State Inspector General issued reports
discussing topics related to the transition of the security assistance mission from the DoD
to the Department of State.

Commission on Wartime Contracting reports can be accessed over the Internet at
www.wartimecontracting.gov. Unrestricted Government Accountability Office reports
can be accessed over the Internet at www.gao.gov. Unrestricted DoD IG reports can be
accessed over the Internet at http://www.dodig.mil/audit/reports or at
http://www.dodig.mil/spo/reports. Department of State Inspector General reports can be
accessed over the Internet at http://oig.state.gov.

Some of the prior coverage we used in preparing this report included:

Congressionally Initiated Reports
“Iraq: The Transition From a Military Mission to a Civilian-Led Effort,” A Report to the
Members of the Committee on Foreign Relations, United States Senate, One Hundred
Twelfth Congress, First Session, January, 2011.

Commission on Wartime Contracting in Iraq and
Afghanistan
CWC Special Report 4, Follow-up Report on Preparing for Post—2011 U.S. Presence in
Iraq, “Iraq—a forgotten mission?” March, 2011.

GAO
GAO-13-84, “Security Assistance: DOD’s Ongoing Reforms Address Some Challenges,
but Additional Information Is Needed to Further Enhance Program Management,”
November 2012

GAO-12-317, “Embassy Management: State Department and Other Agencies Should
Further Explore Opportunities to Save Administrative Costs Overseas,” January 2012

GAO-11-774, “Iraq Drawdown: Opportunities Exist to Improve Equipment Visibility,
Contractor Demobilization, and Clarity of Post-2011 DoD Role,” September 2011.

GAO-11-419T, “Foreign Operations: Key Issues for Congressional Oversight,” March
2011.

Department of Defense Inspector General
DODIG-2012-063, Special Plans and Operations, “Assessment of the DoD Establishment
of the Office of Security Cooperation–Iraq,” March 16, 2012



                                            65
SPO-2011-008, Special Plans and Operations, “Assessment of Planning for Transitioning
the Security Assistance Mission in Iraq from Department of Defense to Department of
State Authority,” August 25, 2011

Department of State Inspector General
MERO-I-11-08, Middle East Regional Office, “Department of State Planning for the
Transition to a Civilian-led Mission in Iraq,” May 2011.

MERO-A-09-10, Middle East Regional Office, “Performance Evaluation of Embassy
Baghdad’s Transition Planning for a Reduced United States Military Presence in Iraq,”
August 2009.




                                          66
Appendix C. Glossary
This Appendix provides definitions of terms used in this report.

Combatant Commander Initiative Fund. As detailed in 10 U.S.C. 166a, the
Chairman of the Joint Chiefs of Staff (CJCS) may provide funds to the commander of a
combatant command, upon the request of the commander, or, with respect to a
geographic area or areas not within the area of responsibility of a commander of a
combatant command, to an officer designated by the CJCS for such purpose. The
Chairman may provide such funds for any of the following activities: force training;
contingencies; selected operations; command and control; joint exercises (including
activities of participating foreign countries); humanitarian and civic assistance, in
coordination with the relevant chief of mission to the extent practicable, to include urgent
and unanticipated humanitarian relief and reconstruction assistance; military education
and training to military and related civilian personnel of foreign countries (including
transportation, translation, and administrative expenses); personnel expenses of defense
personnel for bilateral or regional cooperation programs; force protection; and joint
warfighting capabilities.

Foreign Military Sales Program. The Foreign Military Sales Program is that part
of security assistance conducted using formal agreements between the U.S. Government
and an authorized foreign purchaser or international organization.

Joint Doctrine Development. Joint Staff reported that they had identified and
were planning to address security cooperation doctrine gaps. The Joint Doctrine
Development Community noticed key relationships among the topics of Security Force
Assistance (SFA), Foreign Internal Defense (FID), Security Sector Reform (SSR),
Security Cooperation (SC) and Security Assistance (SA), along with the lack of a
document that “pulls it all together.” As reported by the 50th Joint Doctrine Planners
Conference: within the JP 3-0 series SFA is mentioned in 11 publications, SC in 49, and
FID in 29, along with a lengthy discussion of SFA in JP 3-22 (FID). This dispersion of
topics in so many different publications makes it very difficult to find specific subjects
regarding SC. Conference results also noted the difference between the ways and means
regarding SC and that JP 3-0 did not clearly state the relationship between SA and SC.

Memorandums of Agreement and Understanding. In 1986, Congress
passed The Omnibus Diplomatic Security and Antiterrorism Act of 1986 that expressed
requirements for increased security by all overseas missions and identified interagency
coordination needed to accomplish those tasks. In 1997, in response to Khobar towers
bombing, a memorandum of understanding (MOU) was signed by the Department of
State and Department of Defense which further identified State requirements that would
be accomplished by DoD regarding Marine Security Guards and other physical security
activities at overseas posts. Then, in 2004, a memorandum of agreement between
Commander, U.S. Central Command and Chief of Mission, U.S. Mission Iraq, was
signed to delineate security responsibilities between the two agencies in Iraq during the
first years of the Iraq war. That agreement was in accordance with the MOU of 1997 and


                                            67
described DoD Elements and Personnel Under the Security Responsibility of the Chief of
Mission in “Annex A” and DoD Elements and Personnel Under the Security and
Responsibility of the Combatant Commander in “Annex B.” In this agreement, “Annex
C” was introduced to provide authority for Security of Non-DoD USG Personnel. It
specified categories of personnel to be provided security located at certain facilities under
the responsibility of Commander, USCENTCOM and CoM over personnel in Iraq while
operating or embedded with operational forces. In 2012, a modified MOA between the
Commander, USCENTCOM and CoM, U.S. Mission Iraq was signed maintaining
“Annex C” and identifying OSC-I and other DoD elements as the special case to security
of personnel and facilities in Iraq.

National Defense Authorization Act (NDAA) FY 2013 Mandatory
Reporting. Section 1211 of the NDAA for FY 2013 included mandatory reporting by
the Secretary of Defense. In general, not later than 120 days after the Act was enacted,
the Secretary of Defense, in consultation with the Secretary of State, was to submit to
congressional committees a report on the activities of the Office of Security Cooperation
in Iraq. Matters that the report directed were to be included: (A) A description, in
unclassified form (but a classified annex if appropriate), of any capability gaps in the
security forces of Iraq, including capability gaps relating to intelligence matters,
protection of Iraq airspace, and logistics and maintenance; (B) A description of the
extent, if any, to which the programs of the Office of Security Cooperation in Iraq, in
conjunction with other United States programs such as the Foreign Military Financing
program, the Foreign Military Sales program, and joint training exercises, will address
the capability gaps described in subparagraph (A) if the government of Iraq requests
assistance in addressing such capability gaps; (C) A detailed discussion of the current
manpower, budget, and authorities of the Office of Security Cooperation in Iraq; (D) A
detailed plan for the transition of the costs of the activities of the Office of Security
Cooperation in Iraq to Foreign Military Sales case funding by September 30, 2014, and a
detailed description of the planned manpower, budget, and authorities of the Office to
implement such a plan; (E) A description of existing authorities available to be used to
cover the costs of training the Iraqi Security Forces, including a list of specific training
activities and number of associated personnel that the Secretary of Defense determines
cannot be conducted under any existing authority not provided by this section; and, (F) A
description of those measures of effectiveness that will be used to evaluate the activities
of the Office of Security Cooperation in Iraq and a discussion of the process that will use
those measures of effectiveness to make determinations if specific activities of the Office
should be expanded, altered, or terminated. Not later than September 30, 2013, the
Secretary of Defense, in consultation with the Secretary of State, was to submit to
congressional committees an update of the initial 120 day report, including a description
of any changes to any specific element or process described in elements (A) through (F)
above.

OSC-I Lines of Operation. The four lines of operation (and respective exemplar
activities) within the OSC-I strategy framework were: 1) Modernize [Note: This later
changed to Force Generation] (Material Fielded, Sustainment Institutionalized, Facilities
Upgraded); 2) Train (Institutional Improved, Operational Enabled, Interagency



                                             68
Integrated); 3) Professionalize (Leadership/Ethics Developed, Doctrine Incorporated,
PME improved, Organizations Capable); and, 4) Integrate Regional Activities (Mission
Command Executed, Mil-Mil Relationships strengthened, and Regional Architecture
Supported). See Figure 2, Introduction.
Privileges and Immunities. As defined in 2 FAM 232.1-1 (U.S. State Department
Foreign Affairs Manual) Diplomatic Agents “Diplomatic agents enjoy the highest degree
of privileges and immunities. They enjoy complete personal inviolability. This means
that: they should not be arrested or detained; they are owed a special measure of respect
and protection; and neither their property nor residences may be entered or searched.
Diplomatic agents also enjoy complete immunity from the criminal jurisdiction of the
host State and thus cannot be prosecuted absent a waiver no matter how serious the
offense. Diplomatic agents, with certain exceptions, also have immunity from civil suit.
Finally, they enjoy complete immunity from any requirement to provide evidence as
witnesses. They also cannot be required to testify, even when they themselves have been
the victim of a crime.

Family members forming part of the household of diplomatic agents (recognized by the
Department of State as such) enjoy the same privileges and immunities as do the
sponsoring diplomatic agents.

Additionally, 2 FAM 232.1-2 Members of Administrative and Technical Staff.
“Members of the administrative and technical staff of a diplomatic mission perform tasks
critical to the inner workings of the mission. Accordingly, they enjoy immunities
identical to those of diplomatic agents in respect of personal inviolability, immunity from
criminal jurisdiction, and immunity from any requirement to provide evidence as
witnesses. Their immunity from civil jurisdiction, however, is less extensive than that of
diplomatic agents. Members of the administrative and technical staff enjoy immunity
from civil jurisdiction only in connection with the performance of their official duties.”

Lack of a status of forces agreement was another factor that contributed to important
differences in how the OSC-I functioned. As the withdrawal deadline neared, the U.S.
sought to revise the existing security agreement to permit a U.S. troop presence beyond
2011 due to continuing concerns about the security environment. Despite concerted
efforts to renegotiate the security agreement the government of Iraq indicated that it
would not extend the legal protections of that document. This did not meet Defense
Department requirements for ensuring the security of its personnel in Iraq.

Senior Advisors’ Group (SAG). A section in the OSC-I with a mission of
enabling Iraqi senior military and civilian leaders to develop the Iraqi institutional
capability for internal and external defense across security ministerial functions in order
to foster and facilitate a strategic security partnership between the U.S. and Iraq
governments. Key tasks included: gain and maintain situational awareness of the Iraqi
Ministry of Defense (MoD); facilitate the building of a long term U.S.-Iraq security
relationship; foster partnership with Iraqi Joint Headquarters and Ministry of Defense
counterparts; and, facilitate key leader engagements. Though activities like those



                                             69
performed by the SAG supported Security Sector Reform, they were not always referred
to in that context.

Size of the OSC-I. Since OSC-I’s inception in 2009, the overall security cooperation
mission in Iraq remained fairly constant. The National Security Council (NSC) Deputies
Committee initially approved 157 billets in late 2009 for the OSC-I to support a specific
range of security assistance and security cooperation efforts for Iraq (see Appendix D).
In late 2011, the NSC Deputies approved an expanded OSC-I that was requested by
United States Forces–Iraq and which eventually increased its size to about 260 billets.
Instead of expanding its OSC-I mission scope, those increased personnel mostly provided
OSC-I the necessary mission support capability that it required, since the OSC-I had a
unique responsibility to conduct security cooperation. This was unlike a conventional
SCO established in other countries, and there was no follow-on military force with that
staff capability which OSC-I could leverage for accomplishing its activities.

Standard Operating Procedures. DoD standard operating procedures are a set
of instructions covering those features of operations which lend themselves to a definite
or standardized procedure without loss of effectiveness. The procedure is applicable
unless ordered otherwise. (JP 1-02, “Department of Defense Dictionary of Military and
Associated Terms,” November 8, 2010, as amended through April 15, 2013.) The use of
SOPs provides institutional knowledge of procedures, continuity of processes,
instructions on the performance of routine or repetitive activity, as well as a quality
assurance system and evidence of compliance with prescribed policies and requirements.
The use of SOPs also facilitates training of new personnel by providing written processes
and procedures that reflect the continuity of operations and experiences gained.

Uncertain Environment. Operational environment in which host government
forces, whether opposed to or receptive to operations that a unit intends to conduct, do
not have totally effective control of the territory and population in the intended
operational area. JP 1-02, November 8, 2010, as amended through April 15, 2013.

Withdrawal From Iraq. In the “Agreement Between the United States of America
and the Republic of Iraq On the Withdrawal of United States Forces from Iraq and the
Organization of Their Activities during Their Temporary Presence in Iraq,” effective
January 1, 2009, it states in Article 24, “Withdrawal of the United States Forces from
Iraq,” that “All the United States Forces shall withdraw from all Iraqi territory no later
than December 31, 2011.”




                                             70
Appendix D. Office of Security Cooperation–
Iraq Security Assistance and Security
Cooperation Functions
Introduction
This Appendix is divided into four sections. The first distinguishes only those DoD
administered security assistance programs as a subset of the broader security cooperation
activities. The second outlines the legislated functions that security cooperation
organizations are authorized to perform. The third section lists and defines the specific
security assistance and cooperation functions that the Office of Security Cooperation–
Iraq was designed to perform. The final section lists the responsibilities of the Senior
Defense Official/Defense Attaché (SDO/DATT), as established in DoD Directive
5105.75.

DoD Administered Security Assistance Programs as a
Subset of Security Cooperation
U.S. foreign assistance takes three forms: development assistance, humanitarian
assistance, and security assistance. DoD administers select security assistance programs
for the DOS. Joint Publication 1-02, “Department of Defense Dictionary of Military and
Associated Terms,” 1 describes DoD administered security assistance programs as an
elemental sub-set of the broader security cooperation activities:

                   Security Assistance – Group of programs authorized by the Foreign Assistance Act of
                   1961, as amended, and the Arms Export Control Act of 1976, as amended, or other
                   related statutes by which the United States provides defense articles, military training,
                   and other defense-related services by grant, loan, credit, or cash sales in furtherance of
                   national policies and objectives. Security assistance is an element of security cooperation
                   funded and authorized by Department of State to be administered by Department of
                   Defense/Defense Security Cooperation Agency. [DoD IG note: Only those security
                   assistance programs administered by DoD are a subset of security cooperation.]

                   Security Cooperation – All Department of Defense interactions with foreign defense
                   establishments to build defense relationships that promote specific U.S. security interests,
                   develop Allied and friendly military capabilities for self-defense and multinational
                   operations, and provide U.S. forces with peacetime and contingency access to a host
                   nation.

It also defines those DoD elements responsible for managing security assistance and
security cooperation functions in a foreign country as:

                   Security Cooperation Organization – All Department of Defense elements located in a
                   foreign country with assigned responsibilities for carrying out security
                   assistance/cooperation management functions. It includes military assistance advisory



1
    Latest edition: November 8, 2010 (As Amended Through 15 April 2013).


                                                      71
                 groups, military missions and groups, offices of defense and military cooperation, liaison
                 groups, and defense attaché personnel designated to perform security
                 assistance/cooperation functions.

The Defense Security Cooperation Agency outlines security assistance as 12 major
programs identified in the DSCA Manual 5105.38-M, “Security Assistance Management
Manual (SAMM).” While seven of these Foreign Assistance Act and Arms Export
Control Act (AECA)-authorized programs are administered by DoD, specifically by
DSCA, they remain under the general control of the Department of State as components
of U.S. foreign assistance. The seven programs DoD has responsibility for administering
are:

    •    Foreign Military Sales (FMS)
    •    Foreign Military Construction Services
    •    Foreign Military Financing Program
    •    Leases
    •    Military Assistance Program (MAP)
    •    International Military Education and Training (IMET)
    •    Drawdown

Statutory Security Cooperation Office Functions 2
Section 515, Foreign Assistance Act of 1961, as amended, provides for the President to
assign members of the U.S. Armed Forces to a foreign country. It is the governing
legislation on what functions those military personnel are authorized to perform, which
include:

    1. equipment and services case management;
    2. training management;
    3. program monitoring;
    4. evaluation and planning of the host government’s military capabilities and
       requirements;
    5. administrative support;
    6. promoting rationalization, standardization, interoperability, and other defense
       cooperation measures; and
    7. liaison functions exclusive of advisory and training assistance.

In performing the first function, equipment and services case management, or FMS case
management, the SCO serves as the intermediary between the FMS case manager and the
host nation to ensure that each case is prepared and executed in accord with host nation


2
 This section and the preceding paragraph are primarily derived from: Security Cooperation Organization
(SCO) Responsibilities (February 2013) briefing and briefing notes, Defense Institute of Security
Assistance Management, http://www.disam.dsca.mil/RESEARCH/presentations.asp, accessed on July 25,
2013, Slides 9 – 22 & 54.




                                                   72
desires. In this regard, the SCO assists the host nation to delineate its requirements in
terms of equipment and services. After that, it serves as the facilitator between the
United States and host nation to fill those requirements. Notably, while the SCO is
involved in case management, their personnel are not normally case managers.

For the second function, training management, SCO personnel should coordinate all
military training conducted or contracted by DoD for the host nation. SCO personnel
advise and assist in identifying, forecasting, and programming host nation training
requirements; bring in mobile training teams, Security Assistance Teams, etc.; and
oversee the conduct of the training. Security assistance personnel do not have authority
to actually conduct that training. In fact, Congress specifically limits the advisory and
training assistance conducted by military personnel assigned under Section 515 authority
to an absolute minimum. It is the sense of the Congress that such advising and training
assistance activities shall be provided primarily by other personnel who are not assigned
under Section 515 and who are detailed for limited periods to perform specific tasks.

The SCO role in the third function, program monitoring, is a very important one that has
several aspects. One of the most important aspects involves working with the host
country to advise on the best way to integrate the equipment, services, and training they
already possess with equipment they are buying and what they are contemplating buying
to best meet that country’s defense objectives. In the process, SCO should promote
interoperability of all systems to further host nation forces combined operations
capabilities with U. S. forces. The SCO also supports U. S. defense industries’ marketing
efforts.

End-use monitoring (EUM) of U.S. origin equipment is another key program monitoring
aspect. In some cases EUM involves monitoring the use of sensitive technology or other
selected items, which may require the SCO to conduct periodic inventories and
inspections of specific items that the United States has sold, transferred, or leased.

Finally, program monitoring also entails providing advice and information on methods of
disposal and/or transfer of the items at the end of the useful life of an item in the host
nation’s inventory and overseeing U.S. leased equipment.

The fourth major SCO function is to evaluate host country military capabilities. First, in
the role as advisor to the senior military and defense personnel in a country, the SCO has
an opportunity to advise the host country personnel on developing strategies and
priorities. Second, the SCO provides information to U.S. decision makers on host
country desires and how they meet the foreign policy objectives in the U.S. national
security strategy.

In regards to the fifth function, administrative support, the SCO is authorized to perform
a range of administrative support functions. These may include, but are not limited to:

   •   Budget planning and execution
   •   Accountability for property


                                             73
   •   Maintenance of vehicles
   •   Personnel actions
   •   Housing and Quality of Life
   •   Country clearances and U.S. visitor support
   •   Managing communication and automation equipment
   •   Arranging for postal services and military support flights and cargo

The sixth function, Rationalization, Standardization, and Interoperability (RSI), is
another major SCO function serving U.S. interests. RSI is not limited to standardization
of equipment and interchangeability of repair parts. Instead, it covers the full spectrum of
operations and logistics, to include military terminology, doctrine, communications, and
medical, among other aspects. Basically, if the host nation is obtaining articles, services,
and training from the U.S., RSI is being promoted.

SCOs play a key role in implementing U.S. RSI policy. This policy indicates
interoperability with partner nations is in the best interests of the United States, but
recognizes the degree of international RSI that is subject to financial, legal, technical, and
policy considerations.

Finally, to perform the functions just discussed the SCO serves a seventh liaison function.
Though Section 515 strictly limits advisory and training assistance activities by military
personnel assigned under that section to an absolute minimum, the SCO may perform
other duties assigned by the combatant command or the ambassador. For instance, the
SCO can play a very important role when the United States is requested or directed to
assist in disaster relief in a country. Some members of the SCO may also be tasked for
search and rescue duties.

These SCO mandated functions are performed by working with the senior military and
civilian defense personnel in the host country. While discouraging SCO personnel from
providing operational advice or training, it does allow this to be done by special teams.
Overall, the SCO impacts U.S. national security objectives by:

   •   providing a basis for U.S. access,
   •   influencing host nation decision-makers,
   •   strengthening host nation self-defense,
   •   improving interoperability with U.S. forces,
   •   strengthening host nation leadership and professional skills, and
   •   furthering U.S. economic interests.

With this legislative basis, OSC-I was designed to perform specific security assistance
and security cooperation functions, which are listed in Table 1 and defined in the next
two sections.




                                             74
  Table 1. OSC-I Designed Security Assistance and Cooperation Activities
                       OSC Activities                  OPR       Action
 1   Acquisition and Cross Servicing Agreements         DoD       OSC
 2   Acquisition and Cross Servicing Agreements
     (Significant Military Equipment)                   DoD       OSC
 3   Aviation Leadership Program                        DoD       OSC
 4   Building Partner Capacity of Foreign Militaries    DoD       OSC
 5   Dept of Defense Regional Centers for Security
     Studies                                            DoD       OSC
 6   Developing Country Attendance at Bilateral &
     Multilateral Meetings                              DoD       OSC
 7   Developing Country Combined Exercise Program       DoD       OSC
 8   Direct Commercial Sales                           DSCA       OSC
 9   Drawdowns                                          DoD       OSC
 10 Embedded and Mobile Training                     DoD/DOS OSC
 11 End Use Monitoring                                 DSCA       OSC
 12 Excess Defense Articles                            DSCA       OSC
 13 Exercise-Related Construction                       DoD       OSC
 14 Foreign Military Construction Services             DSCA
 15 Foreign Military Financing Program                 DSCA       OSC
 16 Foreign Military Sales                             DSCA       OSC
 17 Intelligence Capacity Building                   DoD/DOS ODA*
 18 Intelligence Sharing                             DoD/DOS ODA*
 19 International Military Education and Training      DSCA       OSC
 20 Leases                                             DSCA
 21 Joint Combined Exercise Training                    DoD       OSC
 22 Medical Team Deployments                            DoD       OSC
 23 Military Academies                                  DoD       OSC
 24 Military and Professional Exchange Program          DoD       OSC
 25 Multi-lateral Interoperability Program              DoD       OSC
 26 Multi-lateral Planners Conference                   DoD       OSC
 27 Security Force Assistance Activities                DoD       OSC
 28 Senior War College                                  DoD       OSC
 29 Special Operations Support to Combat Terrorism      DoD       OSC
 30 Third Country Transfers                            DSCA       OSC
 31 Training and Doctrine Conferences and Working
     Groups                                             DoD       OSC
Source: DoD OIG SPO (based on May 19, 2010 Multi-National Force Information Paper)
*OSC-I defers to the Office of the Defense Attaché in matters regarding intelligence sharing,
intelligence capacity building, intelligence exercises, joint/combined operations and other intelligence
activities that may be conducted by other agencies, services or departments. However, due to the
sensitivity of the relationship between the GoI and the U.S. Government, collaboration and
coordination between the Office of the Defense Attaché (ODA) and OSC-I is maintained at the most
robust level. [Note: These particular Intelligence Capacity Building and Intelligence Sharing activities
are discussed in other publications and documents and are not defined within this Appendix.]




                                                75
OSC-I Design Security Assistance Functions 3
Of the activities listed above, there are primary security assistance programs that are
required to be conducted post-2011, as ongoing FMS cases will carry on through the
termination of the current security agreement. These will require continuing support for
administration, management, training, fielding, and other related security assistance tasks.
In addition, the United States Forces–Iraq (USF-I) Operations Order 11-01, Annex V,
Appendix 4 indicates that the OSC-I was to have assumed responsibility for performing
all security assistance related functions by its initial operating capability (IOC) date of
June 1, 2011. The following lists these primary security assistance programs.

Foreign Military Sales
Foreign Military Sales is a non-appropriated program administered by DSCA through
which eligible foreign governments purchase defense articles, services, and training from
the U.S. Government. The purchasing government normally pays all costs associated
with a sale. There is a signed government-to-government agreement, normally
documented on a Letter of Offer and Acceptance (LOA) between the USG and a foreign
government. Each LOA is commonly referred to as a “case” and is assigned a unique
case identifier for accounting purposes.

Under FMS; military articles, services, and training; may be provided from DoD stocks
(Section 21, AECA) or from new procurement (Section 22, AECA). If the source of
supply is new procurement, on the basis of having an LOA which has been accepted by
the foreign government, the USG agency or Military Department (MILDEP) assigned
cognizance for this case is authorized to enter into a subsequent contractual arrangement
with U.S. industry in order to provide the article or service requested.

Foreign Military Construction Services
Foreign military construction services is a non-appropriated program administered by
DSCA and authorized by Section 29, AECA, to include the sale of design and
construction services by the USG to eligible purchasers. The construction sales
agreement and sales procedures generally parallel those of FMS and are usually
implemented by the MILDEP civil engineering agencies.

Foreign Military Financing Program
The Foreign Military Financing Program (FMFP) is an appropriated program
administered by DSCA that has undergone a variety of substantive and terminological
changes over the years. At present, the program consists of congressionally appropriated
grants and loans which enable eligible foreign governments to purchase U.S. defense
articles, services, and training through either FMS or direct commercial sales (DCS).
Foreign military sales credit is authorized under the provisions of Sections 23 and 24,


3
 Security Assistance program definitions derived from: “The Management of Security Cooperation,
Defense Institute of Security Assistance Management,” (Greenbook) 32nd Edition, January 2013, pp. 1-1 –
1-7.



                                                  76
AECA, and originally served to provide credit (loans) as an effective means for easing
the transition of foreign governments from grant aid, for example, Military Assistance
Program and International Military Education and Training, to cash purchases.

Prior to FY 1989, this financing program was variously identified as the Foreign Military
Sales Credit Program or the Foreign Military Sales Financing Program. In the FY 1989
“Foreign Operations Appropriations Act” (FOAA), Congress introduced a new title, the
FMFP, and the forgiven loan/forgiven credit component of the program was identified as
FMFP grants to distinguish them from repayable direct FMFP loans. Also, the terms
non-repayable loans or non-repayable credits are often used by various security
assistance organizations (including DSCA) in place of the term “FMFP grants.”

In FY 1990, the Military Assistance Program was formally merged with the FMFP as
Congress adopted an administration proposal for integrating all MAP grant funding into
the appropriations account for the FMFP. This appropriated program was administered
by DSCA. No MAP funds have been appropriated for subsequent fiscal years, and there
is no interest in seeking any such funds for the future. This legislative change, therefore,
had the dual effect of causing existing MAP-funded programs to lose their former
identity and become FMFP-funded programs and establishing the FMFP as the major
U.S. financing program for the acquisition of U.S. defense articles and services by
foreign governments.

MAP continues to be identified as a current security assistance program because the
MAP provided articles remain throughout the world with the continued requirements for
EUM, return to the USG when no longer needed, and any proceeds from a sale to a third
country or scrapping being returned to the USG.

Beginning in FY 1992, the “Federal Credit Reform Act of 1992” (P.L. 101-508) changed
the method of accounting and budgeting for all government loans, including FMFP loans
issued under the AECA. This legislation provides a more accurate portrayal of the true
cost of loans by providing new budget authority only for the subsidy element of the loan
program and is the basis for the establishment of two new financial accounts:

   •   The first contains only the FMFP grant portion of the program administrative
       costs.
   •   The second account provides the budget authority needed to fund the subsidy
       element of the proposed loan programs.

While there are previously authorized FMFP loans still being repaid to the USG, this loan
element is seldom used; the FMFP grant element (no repayment) is the norm.

Leases
Chapter 6, of the AECA, authorizes the President to lease defense articles to friendly
governments or international organizations for up to 5 years (renewable). This non-
appropriated program is administered by DSCA. The law allows the lease of defense
articles only for compelling foreign policy or national security reasons, and stipulates that


                                             77
the full cost of the lease, with some exceptions, must be borne by the recipient.
Furthermore, leased articles must not be needed for U.S. public use during the lease
period, and the United States retains the right to terminate the lease at any time.

For the recipient country, leases may be cheaper than purchasing the article outright, and
they provide a convenient vehicle for obtaining defense articles for temporary use.
Leases are executed through a lease agreement, with an associated FMS case to cover
repair, training, supply support, and/or transportation, if required.

International Military Education and Training
The International Military Education and Training program provides grant financial
assistance for training in the United States and, in some cases, in overseas facilities to
selected foreign military and civilian personnel. In earlier years, grant aid training of
foreign military personnel was funded as part of the MAP appropriation. Starting with
FY 1976, a separate authorization for IMET was established in Section 541, FAA. This
appropriated program is administered by DSCA. Although historically a relatively
modest program in terms of cost, both the President and Congress attach significant
importance to this program. The recipient countries, likewise, are heavily reliant on this
grant program and, in many cases, this program serves as the only method to receive
training from the U.S. military.

At a time of declining defense and foreign aid budgets, IMET advances U.S. objectives
on a global scale at a relatively small cost. In many countries, having a core group of
well-trained, professional leaders with firsthand knowledge of America will make a
difference in winning access and influence for our diplomatic and military
representatives. Thus, a relatively small amount of IMET funding will provide a return
for U.S. policy goals, over the years, far greater than the original investment.

In 1980, Section 644(m)(5), FAA, was amended to authorize IMET tuition costing in
terms of the additional costs that are incurred by the USG in furnishing such assistance.
Section 21(a)(1)(C), AECA, was also amended to allow IMET recipients to purchase
FMS training on an additional cost basis. The practical effects of these changes were to
substantially reduce tuition costs for IMET funded students, and thereby increase the
amount of training an eligible country can obtain with its IMET grant funds and through
FMS purchases.

A new IMET initiative was introduced in the FY 1991 FOAA when Congress adopted a
Senate proposed IMET earmark of $1 million to be used exclusively for expanding
courses for foreign officers as well as for civilian managers and administrators of defense
establishments. The focus of such training is on developing professional level
management skills, with emphasis on military justice systems, codes of conduct, and the
protection of human rights. Section 541, FAA, was amended to permit non-Ministry of
Defense civilian government personnel to be eligible for this program, if such military
education and training would:

   •   Contribute to responsible defense resource management.


                                            78
   •   Foster greater respect for and understanding of the principle of civilian control of
       the military.
   •   Contribute to cooperation between military and law enforcement personnel with
       respect to counternarcotics law enforcement efforts.
   •   Improve military justice systems and procedures in accordance with
       internationally recognized human rights.

This expanded IMET (E-IMET) program was further extended in FY 1993 to also
include participation by national legislators who are responsible for oversight and
management of the military. The E-IMET program authority was again amended in 1996
by P.L.104-164 to also include nongovernmental organization personnel.

Drawdowns
During a crisis, Section 506, FAA, authorizes the President to provide USG articles,
services, and training to friendly countries and international organizations at no cost, to
include free transportation. There is a $100 million ceiling per fiscal year on articles,
services, and training provided for military purposes and another fiscal year ceiling of
$200 million for articles, services and training required for non-military purposes such as
disaster relief, nonproliferation, antiterrorism, counternarcotics, refugee assistance, and
Vietnam War-era missing in action/prisoners of war location and repatriation. When
emergency support for peacekeeping operations is required, Section 552(c)(2), FAA,
separately authorizes the President to drawdown up to $25 million per fiscal year in USG
articles and services from any agency. Special drawdown authorities are periodically
legislated to include $30 million in support for the Yugoslav International Criminal
Court. These non-appropriated authorities are administered by DSCA when defense
articles, services, or training from DoD are to be drawn down.

Direct Commercial Sales
DCS are commercial exports of defense articles, services, and training licensed under the
authority of Section 38, AECA, made by U.S. defense industry directly to a foreign
government. Unlike the procedures employed for FMS, DCS transactions are not
administered by DoD and do not normally include a government-to-government
agreement. Rather, the required USG controls are implemented through licensing by the
Directorate of Defense Trade Controls in the DOS. The day-to-day rules and procedures
for these types of sales are contained in the “International Traffic in Arms Regulations”
[22 CFR 120-130].

Of note, not all license approvals will result in signed contracts and actual deliveries.
Like FMS, DCS deliveries are likely to take place years after the commercial contract is
signed and the export license is obtained by U.S. industry.

Other Security Assistance Related Programs
While these following programs are not identified by DSCA in the SAMM as one of the
specific security assistance programs, they are very much related to the duties of the
security assistance community, both in the United States and recipient foreign
governments.


                                            79
Excess Defense Articles
Excess defense articles identified by the MILDEP or DoD agency are authorized for sale
using the FMS authority in Section 21, AECA, and FMS processes identified within the
SAMM for property belonging to the USG. Prices range from 5 to 50 percent of original
acquisition value, depending on the condition of the article. Additionally, Section 516,
FAA, authorizes the President to transfer excess defense articles on a grant basis to
eligible countries (justified in the annual Congressional Budget Justification). While
excess defense articles can be transferred at no-cost, the recipient must typically pay for
any transportation or repair charges. Under certain circumstances, transportation charges
may be waived, with the cost absorbed by DoD appropriated funds.

Third-Country Transfers
Section 3(d), AECA, authorizes the President to manage and approve the transfer of U.S.-
origin defense articles from the original recipient country to a third country. Requests for
third-country transfers are normally approved if the USG is willing to conduct a direct
transfer to the third country. Third-country transfer authority to countries must be
obtained in writing from the DOS in advance of the proposed transfer. This applies to all
U.S.-origin defense articles regardless of the method of original transfer from the USG or
U.S. industry.

End-Use Monitoring
This program is a key monitoring responsibility for equipment of U.S. origin. In some
cases EUM involves monitoring the use of sensitive technology or other selected items,
which may require the SCO to conduct periodic inventories and inspections of specific
items that the United States has sold, transferred, or leased.

OSC-I Design Security Cooperation Functions 4
Besides the core security assistance programs that DoD administers for DOS, other
security cooperation activities were also identified that most likely would be required
post-2011 to support a foundation of building a defense relationship, developing military
capability, and providing access with the partner nation. Descriptions of activities that
fall within the scope of OSC-I for management, coordination, or execution and most
likely will be enduring are listed in Table 1. In addition to the security assistance
functions discussed in the last section that the OSC-I was to assume by its IOC date of
June 1, 2011, the OSC-I was supposed to have the capacity of performing these
remaining security cooperation functions by its full operating capability (FOC) date of
October 1, 2011. Though not delineated in any one source, the following categorizes
DoD-authorized security cooperation programs the OSC-I was designed to perform at
FOC, with a brief description and references for each program. It should be reiterated


4
 Security Assistance program definitions derived from: “The Management of Security Cooperation,
Defense Institute of Security Assistance Management,” (Greenbook) 32nd Edition, January 2013, pp. 1-7 –
1-26, except for those items annotated with an asterisk (*) in the title. [Note: Items annotated with an
asterisk (*) in the title were derived from a USF-I Information Paper, USF-I Enduring Activities, dated
January 24, 2010.]


                                                   80
that the previously described FAA and AECA-authorized security assistance programs
administered by DoD in accordance with the SAMM also fall under the broad definition
of security cooperation.

Acquisition and Cross-Servicing Agreements
Acquisition and cross-servicing agreements (ACSA) are initiated and negotiated by a
Geographic Combatant Commander to allow U.S. logistics support of a military unit of
another country. Lethal significant military equipment or support reasonably available
from U.S. commercial sources may not be provided under an ACSA. The Joint Chiefs of
Staff, the Office of the Secretary of Defense, and the Department of State, to include a
30-day advance notification to Congress, must approve the proposal before the agreement
is negotiated and concluded by the GCC.

The authority for an ACSA is 10 U.S.C., 2341-2350, with procedures provided in DOD
Directive 2010.9. However, the National Defense Authorization Act (NDAA) for FY
2007, P.L.110-417, 109-364, 17 October 2006, Section 1202, as amended, authorized the
loan of certain categories of significant military equipment defense articles to countries
participating in coalition operations in Iraq, Afghanistan, or for peacekeeping operations
for up to 1 year. The authorization is extended through FY 2014. It must be determined
by the Secretaries of State and Defense that it is in the U.S. national security interest to
provide this loan and there are no unfilled U.S. in-theater requirements for the loaned
articles.

Aviation Leadership Program
Section 544(c), FAA, authorizes the cooperative participation of foreign and U.S.
military and defense civilian personnel in post-undergraduate flight training and tactical
leadership programs at locations in Southwest Asia without charge to participating
foreign countries. Such training must satisfy common requirements with the United
States for post-undergraduate flight and tactical leadership training. Cooperative
arrangements require an equitable contribution of support and services from each
participating country. The President may waive the requirement for an equitable
contribution of a participating foreign country if he determines that to do so is important
to the national security interests of the United States. Costs incurred by the United States
shall be charged to the current applicable appropriations accounts or funds of the
participating United States Government agencies.

10 U.S.C. 9381-9383 authorizes the Secretary of the Air Force (SAF) to provide
undergraduate pilot training and any necessary related training to include language
training to students from friendly, less-developed countries. Though aviation leadership
program (ALP) students are to be managed and priced as if in the IMET program, IMET
funds are not to be used. Any training costs to include actual cost of the training and
subsistence are to be incurred by the USAF. DoDI 2010.12 provides guidance to SAF,
DSCA, and the CoCOMs for ALP eligibility and implementation.




                                             81
Building Partner Capacity of Foreign Militaries
Beginning in FY 2006, up to $350 million in DoD funding may be used annually to
equip, supply, and train foreign military forces (including maritime security forces) to
conduct counterterrorism operations, or participate in or support military and stability
operations in which U.S. forces are participating. Any country prohibited by law from
receiving such assistance may not receive such assistance. This program is initially
authorized by NDAA FY 2006, Section 1206, as amended. This annual “1206” authority
for individual programs is to be notified to Congress 15 days prior to implementation,
with the funds to be obligated prior to the end of the subject fiscal year. This short time
requirement places significant pressure on the MILDEP acquisition agencies for
execution. Pseudo LOA case procedures are used for the implementation and
management of this program. This program is managed by DSCA and the MILDEPs in
support of Assistance Secretary of Defense for Special Operations/Low-Intensity Conflict
and the GCC; requests are often initiated by the SCO. Both the Secretaries of Defense
and State must concur with proposed programs prior to notifying Congress. Legislative
proposals have regularly sought to raise the 1206 cap, and the program is currently
authorized through FY 2013.

Department of Defense Regional Centers for Security Studies
Title 10 authorities and DoD appropriations funded the development of five regional
centers for security studies. The centers serve as a mechanism for communicating U.S.
foreign and defense policies to international students, a means for countries to provide
feedback to the United States concerning these policies and communicating country
policies to the United States. The regional centers’ activities include education, research,
and outreach. They conduct multi-lateral courses in residence, seminars within their
region, and conferences that address global and regional security challenges, such as
terrorism and proliferation. Participants are drawn from the civilian and military
leadership of Allied and partner nations. Security assistance funding is not used to pay
for the centers or the students attending them.

However, under certain circumstances, DoD funds may be used to fund foreign
attendance at the centers. The Under Secretary of Defense for Policy in coordination
with the relevant GCC provides oversight for the five centers. DODD 5200.41 provides
policy and management guidance. Beginning in FY 2006, DSCA began administering
the DoD centers under the direction of the Under Secretary of Defense for Policy. The
five centers are:

   •   Africa Center for Strategic Studies, located at the National Defense University in
       Fort McNair, Washington, D.C. was established in 1999.
   •   Asia-Pacific Center for Security Studies, located in Honolulu, Hawaii, was
       established in 1995.
   •   Center for Hemispheric Defense Studies, located at the National Defense
       University in Fort McNair, Washington, D.C., was established in 1997.
   •   George C. Marshall European Center for Security Studies, located in Garmisch,
       Germany, was established in 1993.



                                             82
   •   Near-East South Asia Center for Strategic Studies, located at the National
       Defense University in Fort McNair, Washington, D.C., was established in 2000.

Section 904 of the NDAA for FY 2007 finally codified the authority for these regional
centers with a new 10 U.S.C., 184.

Payment of Expenses to Attend Bilateral or Regional
Conferences
10 U.S.C., 1051 authorizes DoD to pay travel and personal expenses for developing
country personnel to attend bilateral or regional conferences, usually GCC sponsored.

Developing Country Combined Exercise Program
The Developing Country Combined Exercise Program (DCCEP) is authorized by
10 U.S.C. 2010 to use DoD funds to pay for incremental expenses for a developing
country to participate in a combined exercise with U.S. forces. Such expenses normally
include rations, fuel, training ammunition, and transportation. The Joint Staff in
coordination with the GCC manages DCCEP. This authority was further amended in FY
2009 with a new 10 U.S.C. 2010(d) authorizing funding for exercise expenses that begin
in one fiscal year and extend into the following fiscal year.

Mobile Training Teams and Mobile Education Teams*
This program consists of U.S. military and civilian personnel assigned temporarily in
country to train/educate (Mobile Training Teams [MTT] or Mobile Education Teams
[MET], respectively) international personnel. MTTs and METs are authorized for
specific in-country training requirements, training associated with equipment transfer, or
to conduct surveys and assessments of training requirements.

When the request message is received from the SCO and approved for programming, the
GCC and military service will verify that it has the capability to provide the training
requested and “call up” the team. Once in-country, the team reports to and comes under
supervision of the SCO chief.

Exercise Related Construction
The exercise related construction program is authorized by 10 U.S.C. 2805 with policy
guidance provided within “Chairman of the Joint Chiefs of Staff Instruction” 4600.01A
to allow overseas construction by the U.S. military in locations where there is no
permanent U.S. presence. The construction is to enhance exercise effectiveness, enhance
troop quality of life, and increase operational readiness. The construction is typically
used by U.S. forces during an exercise but remains intact for host nation use after
departure. Projects may include new construction, conversion of existing facilities (for
example, warehouses into exercise operations centers), and restoration of deteriorating
facilities.

The United States and/or the host nation engineer units and construction contracts may be
used to accomplish projects. When construction is accomplished with partner nation


                                            83
engineers, interoperability benefits are also obtained. The Joint Staff logistics
engineering division manages the program through the engineer divisions of the area
GCCs.

Joint Combined Exchange Training
The Joint Combined Exchange Training Program (JCET) includes the deployment by
U.S. Special Operations Forces with the dual purpose of training themselves and foreign
counterparts. Title 10 United States Code (2011),provides the authority for the use of
DoD funding for JCET. This funding can be used for the training of the foreign
counterpart, expenses for the U.S. deployment, and, for developing countries, the
incremental expenses incurred by the country for the training. The JCET program is
carefully followed by Congress because of concerns about inadequate civilian oversight
and fears that such training might benefit units or individuals who have committed
human rights violations.

In addition to JCET, the NDAA, FY 2005, Section 1208, P.L. 108-375, 28 October 2004,
as amended, originally authorized the Secretary of Defense to expend up to $25 million
in DoD funding annually to support foreign forces, irregular forces, groups, or
individuals engaged in supporting or facilitating ongoing operations by U.S. special
operations forces in combating terrorism. This authority is not to be delegated below the
Secretary of Defense.

Assignment of DoD Civilian Employees as Advisors to Ministries
of Defense*
Section 1081, P.L. 112-81, 31 December 2011, NDAA, FY 2012, authorizes the
Secretary of Defense, with the concurrence of the Secretary of State, to assign DoD
civilian employees as advisors to ministries of defense (or security agencies serving in a
similar defense function) of other countries with the authority to expire at the end of FY
2014. Any assignment of such personnel after FY 2014 may continue but only with the
use of funds available for FYs 2012-2014. The functions of such advisors are to include:

   •   provide institutional, ministerial-level advice, and other training to personnel of
       the ministry to which assigned to support of stabilization or post-conflict
       activities; or
   •   assist such ministry in building core institutional capacity, competencies, and
       capabilities to manage defense-related processes.

Military Academies and Senior Military Colleges
Military Academy Student Exchanges
By international agreement, the MILDEP secretaries each may authorize up to one
hundred students annually to participate in the reciprocal exchange of cadets to attend the
appropriate military academies. The authorities for this exchange program are:

   •   10 U.S.C. 4345 for the U.S. Military Academy



                                            84
   •   10 U.S.C. 6957a for the U.S. Navy Academy
   •   10 U.S.C. 9345 for the U.S. Air Force Academy

Senior Military Colleges and Military Academies
10 U.S.C. 2111b authorizes DoD and the MILDEPs to provide quotas to international
students to attend the various senior officer colleges. The MILDEP secretaries each may
provide up to 60 quotas at any 1 time to foreign military students to attend the 3 military
academies. The Office of the Under Secretary of Defense for Policy may waive all or
any part of the requirement to reimburse any cost for attendance. The invitations to apply
to attend the academies are offered by the MILDEP secretaries usually through the Office
of Defense Attaché. These programs are not considered security assistance; authorities
for attending the military academies are:

   •   10 U.S.C. 4344(a)(1) for the U.S. Military Academy,
   •   10 U.S.C. 6957(a)(1) for the U.S. Navy Academy, and
   •   10 U.S.C. 9344(a)(1) for the U.S. Air Force Academy.

Military and Professional Exchange Program
Professional Military Education Student Exchanges
Section 544(a), FAA, authorizes by international agreement no-cost, reciprocal
professional military education (PME) student exchanges. PME usually includes
attendance at the MILDEP leadership and management education institutions but not to
include the service academies. The U.S. participant in this program will attend the
equivalent institution in the foreign country and be administratively supported by either
the local Office of Defense Attaché or SCO.

Defense Personnel Exchange Program
The NDAA for FY 1997, Section 1082, authorizes DoD to enter into reciprocal personnel
exchange agreements with a country for personnel to be assigned to each other’s
organizations. Though not codified into 10 U.S.C., this authority has no expiration date.
Each country is to pay any associated costs with the exchange. Exceptions to this
requirement are temporary duty costs and training directed by the host country.

Multilateral Military Centers of Excellence
Section 1232, P.L. 110-417, 14 October 2008, NDAA, FY 2009, provided for a new 10
U.S.C., authorizing DoD, in coordination with DOS, to participate by memorandum of
understanding in any multilateral military center of excellence for the following
purposes:

   •   Enhancing other countries’ military and civilian personnel to engage in joint
       exercises or coalition of international military operations.
   •   Improve interoperability between U.S. forces and other countries’ forces.




                                            85
DoD Operations and Maintenance funds may be used to pay the U.S. share of operating
any such center and to pay expenses to attend such centers.

Center for Complex Operations
Section 1031, P.L. 110-417, 14 October 2008, NDAA, FY 2009, provided for a new 10
U.S.C. authorizing the establishment of a center for complex operations. The purpose of
the center is:

   •   Effective coordination in the preparation of DoD and other USG personnel for
       complex operations.
   •   Foster unity of effort among USG organizations, foreign government personnel
       international non-governmental organizations (NGOs), and U.S. NGOs during
       complex operations.
   •   Conduct research, collect, analyze, and distribute lessons learned and compile
       best practices.
   •   Identify gaps in the education and training of USG personnel and facilitate efforts
       to fill any such gaps.

Prior concurrence from DOS is required before including other countries or international
NGOs. Complex operations include stability operations, security operations, transition
and reconstruction operations, counterinsurgency operations, and irregular warfare. The
Center for Complex Operations (CCO) has been established and located at the National
Defense University (NDU) on Fort Leslie McNair in Washington, D.C., since early 2009.

Security Force Assistance
Security Force Assistance is DoD activities that contribute to the unified action by the
USG to support the development of the capacity and capability of foreign security forces
and their supporting institutions. SFA is a subset of DoD security cooperation and
security assistance provides critical tools to fund and enable SFA activities. Activities are
carried out by the civilian expeditionary workforce alongside general purpose forces and
special operations forces.

Other Military-to-Military Contact and Security
Cooperation Programs
Though not specifically listed in the proposed OSC-I design functions, the following lists
a number of other security cooperation related programs that it might be involved in
supporting. Many of these programs have been around for a long time and continue
today as a general program to establish and strengthen professional (and personal)
relationships between two country counterparts.

Traditional Combatant Commander Activities
Section 168, title 10, United States Code, authorizes DoD, normally the GCC, to conduct
military-to-military contacts and comparable activities with allied and friendly countries
to encourage a democratic orientation of defense establishments and military forces.
Some functions include:


                                             86
   •   Seminars and conferences
   •   Exchange of military and civilian personnel
   •   DoD personnel expenses
   •   Military liaison teams
   •   Distribution of publications

Funding for the Traditional Combatant Commander Activities program is provided to the
GCC by the MILDEPs will act as executive agents. Section 1202, P.L. 110-417,
provided a new 10 U.S.C. 168(e)(5) authorizing the use of funds for such expenses that
begin in one fiscal year and extended into the following fiscal year.

Combatant Commander Initiative Fund
The Combatant Commander Initiative Fund consists of GCC-nominated special interest
programs authorized by 10 U.S.C. 166a to be funded at a rate of $25 million annually.
The FY 2012 DoD appropriations act provided $47 million for Combatant Commander
Initiative Fund (see also Appendix D).

Regional Defense Combating Terrorism Fellowship Program
The Regional Combating Terrorism Fellowship Program (CTFP) was established in 2002
first with DoD funding, later with DoD authorizations, and now under 10 U.S.C. 2249c.
The purpose of the program is to help key partner nations cooperate with the United
States in the fight against international terrorism by providing education and training on a
grant basis to foreign military and civilian personnel. The objective is to bolster the
capacity of friends and allies to detect, monitor, interdict, and disrupt the activities of
terrorist networks, ranging from weapons trafficking and terrorist-related financing to
actual operational planning by terrorist groups. The Assistant Secretary of Defense for
Special Operations/Low Intensity Conflict is the Office of the Secretary of Defense
Manager of CTFP, in coordination with the GCCs. The day-to-day administration of the
program is performed by DSCA. The $20 million was originally appropriated to DoD for
CTFP. The management of quotas is very similar to that of IMET. Section 1204,
P.L.109-364, amended the annual funding authority to $25 million. Later, Section 1214
of P.L. 110-417 amended the authorized annual funding level to $35 million.

Senior Defense Official/Defense Attaché Responsibilities
DoD Directive 5105.75 establishes the SDO/DATT responsibilities and stipulates that the
SDO/DATT in each embassy shall:

   •   Serve as Defense Attaché and Chief of Security Assistance under the joint
       oversight and administrative management of the USD(P) and USD(I) through the
       Directors, DSCA and DIA, in coordination with the GCC.
   •   Act as the in-country focal point for planning, coordinating, supporting, and/or
       executing U.S. defense issues and activities in the host nation, including Theater
       Security Cooperation programs under the oversight of the GCC.



                                            87
    •   Serve as the principal embassy liaison with host-nation defense establishments
        and actively participate in national security and operational policy development
        and coordination.
    •   Represent the Secretary of Defense and the DoD Components to host-nation
        counterparts and foreign diplomats accredited to the host nation, and act as the
        principal in-country DoD diplomatic representative of the Secretary of Defense
        and the DoD Components.
    •   Present coordinated DoD views on all defense matters to the COM and act as the
        single DoD point of contact to the COM to assist in carrying out the COM’s
        responsibilities under appropriate references.
    •   Represent the Secretary of Defense and appropriate Commanders of the
        Combatant Commands for coordination of administrative and security matters for
        all DoD personnel not under the command of a U.S. area military commander.
    •   Carry out the duties and instructions as set forth in Chairman Joint Chiefs of Staff
        Instruction C-3310.01C.
    •   Exercise Coordinating Authority over DoD elements under the direction and
        supervision of the COM. This shall not preempt the authority exercised over
        these elements by the COM, the mission authority exercised by the parent DoD
        components, or the command authority exercised by the GCC under the Unified
        Command Plan. Additionally, this authority does not include authority to impose
        punishment under the Uniform Code of Military Justice.
    •   As required, provide information to U.S. Government officials on the general
        scope of in-country activities for all DoD component command elements assigned
        to the mission. This includes the missions, locations, organization, and unique
        security requirements. 5




5
 DoD Directive 5105.75, “Department of Defense Operations at U.S. Embassies,” December 21, 2007,
pp.7-8.


                                                88
Appendix E. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from
the following U.S. and Iraqi organizations:

Government of the United States
U.S. Congress
Senate
   •   Committee on Armed Services (Professional Staff Members)

House of Representatives
   •   Committee on Armed Services (Professional Staff Members)

Department of State
Washington, D.C.
   •   Bureau of Near East Affairs
   •   Office of Inspector General

U.S. Embassy - Baghdad
   •   Baghdad Diplomatic Support Center
   •   Chief of Mission
   •   Deputy Chief of Mission
   •   Management Section
   •   Political Military Section
   •   Regional Security Officer Section

Department of Defense
Office of the Secretary of Defense (OSD)
   •   Office of the Under Secretary of Defense for Policy–Principal Director for Middle
       East Policy
   •   Office of the Under Secretary of Defense (Comptroller)

Joint Staff
   •   Director, Strategic Plans and Policy (J5)
   •   Director, Joint Force Development (J7)

U.S. Central Command
   •   Headquarters


                                            89
      o   CCJ1–Manpower
      o   CCJ3–Operations Directorate
      o   CCJ4–Logistics Directorate
      o   CCJ5–Strategy, Plans and Policy Directorate
      o   CCJ7–Training and Exercises Directorate
      o   CCJ8–Resources and Analysis Directorate
      o   CCJA–Judge Advocate

  •   Office of Security Cooperation–Iraq
      o J1 (Personnel)
      o J2 (Intel)
      o J3 (Operations)
      o J4 (Logistics)
      o J5 (Plans)
      o J6 (Command, Control, Communications and Computers)
      o J7 (Engineering)
      o J8 (Finance)
      o J9 (Strategic Communications)
      o OSC-I Chaplain
      o OSC-I Chief of Staff
      o OSC-I Counter Terrorism Service
      o OSC-I Command Sergeant Major
      o OSC-I Chief’s Initiative Group
      o OSC-I Deputy
      o OSC-I Executive Director for Support
      o OSC-I Explosive Ordnance Disposal Exploitation Chief
      o OSC-I Inspector General
      o OSC-I Knowledge Management Officer
      o OSC-I Professional Military Education
      o OSC-I Security Assistance Section
              Security Assistance Air Defense Artillery Team Chief
              Security Assistance Army Team Chief
              Security Assistance Air Force Team Chief
              Security Assistance Army Air Team Chief
              Security Assistance Log Chief
              Security Assistance Navy Team Chief
      o OSC-I Senior Advisor Group
      o OSC-I Staff Judge Advocate
      o OSC-I Surgeon

DoD Managed Sites in Iraq Visited
  •   Besmaya
  •   Baghdad Diplomatic Support Center–OSC-I
  •   Embassy Military Attaché and Security Assistance Annex
  •   Taji



                                         90
Defense Agencies
  •   Army and Air Force Exchange Service
  •   Army Support Command Liaison
  •   Center for Army Lessons Learned Liaison
  •   Defense Contract Audit Agency
  •   Defense Contract Management Agency
  •   Defense Logistics Agency–Iraq
  •   Defense Security Cooperation Agency
  •   Force Protection Division–Iraq
  •   United States Army Corps of Engineers
  •   National Capabilities and Resources Office

Government of Iraq
Ministry of Defense
  •   Chief of Staff, Iraqi Joint Headquarters




                                           91
This Page Intentionally Left Blank




               92
Appendix F. Management Comments




                  93
94
95
96
97
98
99
100
101
102
103
This Page Intentionally Left Blank




               104
Appendix G. Report Distribution
Department of State
Secretary of State
U.S. Ambassador to Iraq
Assistant Secretary of State for Political-Military Affairs
Inspector General, Department of State*

Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Acquisition, Technology and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Policy*
Under Secretary of Defense for Personnel and Readiness
Vice Chairman of the Joint Chiefs of Staff
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Director, Cost Assessment and Program Evaluation
Director, Defense Procurement and Acquisition Policy
Director, Joint Staff
Director, Manpower and Personnel (J-1)
Director, Operations (J-3)
Director, Logistics (J-4)
Director, Strategic Plans and Policy (J-5)
Director, Joint Force Development (J-7)*

Department of the Army
Secretary of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, U.S. Army Materiel Command
Commander, U.S. Army Materiel Command Logistics Support Activity
Commander, U.S. Army Security Assistance Command
Commander/Chief of Engineers, U.S. Army Corps of Engineers
Commander, Gulf Region Division, U.S. Army Corps of Engineers
Auditor General, Department of the Army
Inspector General of the Army

*Recipient of the draft report




                                            105
Department of the Navy
Naval Inspector General

Department of the Air Force
Commander, Air Force Security Assistance Center
Inspector General of the Air Force

Combatant Commands
Commander, U.S. Central Command*
Chief, Office of Security Cooperation–Iraq*

Other Defense Organizations
Director, Defense Logistics Agency
Director, Defense Security Cooperation Agency
The Special Inspector General for Iraq Reconstruction

Other Non-Defense Federal Organizations
Comptroller of the United States
Office of Management and Budget

Congressional Committees and Subcommittees,
Chairman and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
House Subcommittee on National Security and Foreign Affairs
House Committee on International Relations

*Recipient of the draft report.




                                          106
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                              4800 Mark Center Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Alexandria, VA 22350-1500





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
